<html>
<title> - A TRANSFORMATION: AFGHANISTAN BEYOND 2014</title>
<body><pre>[Senate Hearing 113-476]
[From the U.S. Government Publishing Office]





 

                                                        S. Hrg. 113-476

                           A TRANSFORMATION: 
                        AFGHANISTAN BEYOND 2014

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NEAR EASTERN AND 
                    SOUTH AND CENTRAL ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 30, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
       
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
 
                         U.S.GOVERNMENT PRINTING OFFICE
 91-298 PDF                  WASHINGTON: 2015                        
                         
      
 ___________________________________________________________________________________     
     For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a2c5d2cde2c1d7d1d6cac7ced28cc1cdcf8c">[email&#160;protected]</a>  
 
 
      
      
      
      
      
      
      
      
   

                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON NEAR EASTERN AND        
                SOUTH AND CENTRAL ASIAN AFFAIRS        

                 TIM KAINE, Virginia, Chairman        

BARBARA BOXER, California            JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JOHN McCAIN, Arizona

                              (ii)        

  

                            C O N T E N T S

                              ----------                              
                                                                   Page

Allen, Gen. John, U.S. Marine Corps (Retired), distinguished 
  fellow, Brookings Institution, Washington, DC..................    27
    Prepared statement...........................................    29
Blanc, Jarrett, Deputy Special Representative for Afghanistan and 
  Pakistan, U.S. Department of State, Washington, DC.............     4
    Prepared statement...........................................     6
    Response to question submitted for the record by Senator 
      Robert Menendez............................................    45
Campbell, Kathleen, Acting Deputy Assistant to the Administrator, 
  Office of Afghanistan and Pakistan Affairs, U.S. Agency for 
  International Developement, Washington, DC.....................    13
    Prepared statement...........................................    14
    Responses to questions submitted for the record by Senator 
      Robert Menendez............................................    47
Kaine, Hon. Tim, U.S. Senator from Virginia, opening statement...     1
Nazary, Parnian, advocacy manager, Women for Afghan Women, 
  Washington, DC.................................................    30
    Prepared statement...........................................    33
Sumar, Fatema, Deputy Assistant Secretary, Bureau of South and 
  Central Asian Affairs, U.S. Department of State, Washington, DC     8
    Prepared statement...........................................    10
    Responses to questions submitted for the record by Senator 
      Robert Menendez............................................    45
    Responses to questions submitted for the record by Senator 
      Tom Udall..................................................    51

                                 (iii)

  

 
                           A TRANSFORMATION: 
                        AFGHANISTAN BEYOND 2014

                              ----------                              


                       WEDNESDAY, APRIL 30, 2014

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                   South and Central Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:30 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Tim Kaine 
(chairman of the subcommittee) presiding.
    Present: Senators Kaine, Cardin, Risch, Johnson, and 
McCain.

             OPENING STATEMENT OF HON. TIM KAINE, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Kaine. I want to call the meeting of the 
Subcommittee on Near Eastern and South and Central Asian 
Affairs of the U.S. Senate Committee on Foreign Relations to 
order.
    This is an important hearing that we are having today. 
There will be other members coming and going, as is the norm 
here in the Senate, and we are very excited to have witnesses 
here today with us.
    I am starting promptly because we have a vote at noon.
    We have two very distinguished panels. I want to make sure 
that we hear from all the witnesses and have an opportunity to 
engage in dialogue. And so I welcome you all and all members of 
the public who are here for this important hearing on 
Afghanistan beyond 2014.
    At the turn of the century 2000, few in Afghanistan could 
have imagined a country where millions of girls were attending 
school, where Afghan youth enjoyed cell phone access and 75 TV 
channels at their disposal, where there is a multiethnic 
Parliament with 70 female Members, actually a higher percentage 
of women representation than in the United States Congress. Few 
would have imagined that Afghanistan, whose life expectancy 
would have grown by more than one-third in a decade, nor could 
have anyone imagined national elections after three decades of 
war.
    But we have this hearing today recently following April 5, 
2014, the beginning of a momentous transition for the people of 
Afghanistan, the first democratic transfer of power in the 
history, in the proud history, of that country. We were 
witnessing a campaign of hope and resilience during that 
Presidential campaign with high voter turnout, nearly 70 
percent. We saw long lines of Afghan voters who wanted to send 
a powerful message to the Taliban who tried but failed to 
intimidate them through violence and fear. The vote was the 
evidence of a strong democratic demand among the Afghan 
population and the grit and determination of the people.
    The election trends are positive. There will be a runoff 
election. We do not have a favorite in the election, but we 
rejoice in the turnout and that democratic demand evidenced by 
high turnout.
    There were reports of fraud, although less than in past 
elections. There was violence, certainly efforts to intimidate, 
though better than in earlier instances. The challenges are 
significant both in the completion of this campaign and 
certainly beyond.
    But the elections are an Afghan moment. They also should 
serve to remind us and the American public of how far 
Afghanistan has come in the last 13 years.
    We hold this hearing today to talk about that. We are not 
going to gloss over challenges. We will talk about challenges, 
but we believe this political transition provides a significant 
opportunity to shift and talk now about the future of the 
country.
    Americans have to know what has been achieved and how an 
enduring partnership with the Afghan people can ensure that the 
next decade is as transformative as the last. That is the 
reason that I wanted to hold this hearing today.
    The American people should also always, always take time to 
be proud of the servicemembers who served in Afghanistan and 
continue to serve and to our diplomats also and to all from our 
country who were all ``small A'' ambassadors sacrificing so 
much to help the Afghan people build a better future.
    We saw a horrendous attack last week in Afghanistan that 
killed three American physicians, and that is a grim reminder 
of the challenges that remain and the sacrifices that have 
occurred thus far.
    I visited Afghanistan twice, once as Governor to visit my 
Virginia Guard proudly serving in Afghanistan and once last 
year with five other Senators to explore the situation as we 
approached 2014. I have been privileged to meet our troops in 
the field, in Kabul, and elsewhere and to meet our wonderful 
State Department, USAID, and other Americans who have helped 
bring about some significant progress since 2001.
    We often debate here in the Senate--and we should--about 
troop levels in the bilateral security agreement that is no 
doubt important. We have to support, train, and advise a 
mission beyond 2014, as do many Afghan political leaders. But 
today our focus is on other aspects of Afghanistan's 
transformation. The U.S. Government, the private sector 
economic development, the NGOs working together in the future 
to improve the lives of Afghans.
    Just a couple of examples. The State Department is working 
to support the Turkmenistan-Afghanistan-Pakistan pipeline 
project, and we want to get details about what can be done to 
facilitate the success of that endeavor.
    USAID's Better Than Cash program is working to build an 
electronic banking system for Afghan citizens.
    Farmers have and they need still to have even speedier 
access to markets for licit agricultural products.
    School enrollment for girls is at an unprecedented level. 
We do not want that to go backward. We want it to go forward.
    Life expectancy has increased by two decades. That is a 
statistic that continually makes me kind of step back and gasp 
because this is not actuarial math. This is seat-of-the-pants 
math. But if you basically take a country of 30 million people 
and you increase life expectancy by 20 years, by my calculation 
that is 600 million years of additional human life. That is 
pretty significant. It took the United States about 50 years to 
make that same move from 1900 until just after World War II. 
That was an achievement of the last decade in Afghanistan.
    Here are some issues that I hope our witnesses will discuss 
today, and from reading their testimony, I am confident they 
will. The challenge of youth. The median age in Afghanistan is 
18 and the resilience of the democracy rests pretty 
significantly on the government's ability to engage and then 
meet in a patient, realistic way the aspirations of Afghan 
young people.
    The Afghan economy and issues along the New Silk Road. I 
want to thank the Department for making this a priority. 
Greater economic integration is essential to Afghanistan's 
future and the neighbors'. And the New Silk Road can be a 
positive vision for the region's future rooted in the free 
exchange of goods, people, and ideas.
    We are going to have powerful testimony about this today of 
the empowerment of women. We have to work to ensure that the 
success and the journey of Afghan women thus far is 
irreversible and continues.
    And lessons learned. What are lessons learned from the 
experience that we have had in the first 11 or 12 years about 
things that we have not done well or that others have not done 
well, NGOs or others, and how can we apply those lessons to 
improve as we go forward.
    The country is on a transformative journey and the people 
know what is at stake. In January, Colonel Jamila Bayaz, a 50-
year-old mother of five, became the first woman to be appointed 
police chief in Afghanistan. At her promotion ceremony, she 
said she would not have achieved her position had it not been 
for the efforts of the United States and the international 
community.
    I do understand--and I think my colleagues hear this as 
well--a sentiment of exhaustion at home over the long, long, 13 
years of war, the longest wars in the history of the United 
States. And that leads to some exhaustion, and it can lead to a 
temptation to focus on other issues rather than to continue to 
be supportive. But we have invested too much of ourselves as a 
nation to walk away from Afghanistan.
    And today we have great witnesses who can share with us 
things that we can appropriately do, given all the budgetary 
and other limits we face, things that we can appropriately do 
that will continue to advance the quality of life in 
Afghanistan and a strong partnership between our country and 
the Afghan people.
    I was going to ask Senator Risch to do opening comments. I 
think what I will do is let Senator Risch deliver comments when 
he appears as the ranking member on this subcommittee. What I 
will do now with the approval of my colleagues is introduce the 
first panel and ask you to make opening statements, and then we 
will move into questions and answers. Again, we are going to 
try to have both panels up and have a good dialogue by noon so 
that we can vote at that time.
    On the first panel, we have the following.
    Jarrett Blanc is Deputy Special Representative for 
Afghanistan and Pakistan. He has served in this role and as the 
Special Advisor to the Special Representative since 2009. He 
has been significantly engaged during this transformative 
period and we look forward to hearing Mr. Blanc's testimony.
    Fatema Sumar is the Deputy Assistant Secretary for South 
and Central Asia. She joined the State Department in August 
2013. Prior to that, she was working on this committee staffing 
this corner of the world. So she sat in the chairs behind us 
and this is her first effort to sit and be grilled by committee 
members. So I encourage my committee members to be tough since 
this is her first effort in the witness chair. [Laughter.]
    But we are very, very glad to have her back to talk about 
this from the State Department's perspective.
    And finally, Kathleen Campbell is the Acting Deputy 
Assistant to the Administrator for USAID's Office of 
Afghanistan and Pakistan Affairs. She came from Save the 
Children where she was associate director of Development Aid 
Policy and Advocacy.
    We are glad to have you, and if you would deliver opening 
statements in the order I introduced you and then we will move 
quickly into a good dialogue. Thanks for being here today.

 STATEMENT OF JARRETT BLANC, DEPUTY SPECIAL REPRESENTATIVE FOR 
AFGHANISTAN AND PAKISTAN, U.S. DEPARTMENT OF STATE, WASHINGTON, 
                               DC

    Mr. Blanc. Thank you very much, Mr. Chairman, members of 
the committee, and thank you for the opportunity to appear 
before you today to discuss the future of Afghanistan beyond 
2014.
    In particular, I would like to thank the members of this 
committee for your continued support for this mission. The 
American people have been generous, steadfast, and brave in 
supporting Afghanistan.
    And I would join the chairman in calling attention to the 
memories of the three American citizens killed last week at the 
Cure International Hospital in Kabul, not only them, but to the 
dedication of thousands of American women and men who have 
served in our Armed Forces and our diplomatic outposts and our 
assistance programs in Afghanistan.
    The investments we have made in Afghanistan have paid 
important and underreported dividends. We began this mission in 
late 2001 to prevent Afghanistan from again being used to 
launch attacks against us. As part of an international 
coalition of more than 50 nations, we have helped make the 
world more secure.
    Our mission now is to make these gains sustainable by 
handing over and supporting increasingly capable Afghan 
institutions. As we approach the end of the ISAF mission and 
the beginnings of the political transition to a new Afghan 
Government, I would like to describe evidence that Afghan 
institutions are precisely that, increasingly capable and 
sustainable, and to outline the challenges that these 
institutions now face and the ways in which we and our partners 
can and intend to continue to help them overcome those 
challenges.
    Afghan confidence and ours begins with the performance of 
the Afghan National Security Forces, the most highly regarded 
institution in the country. The Afghan National Security Force 
has progressed from supporting ISAF operations to conducting 
them jointly to leading complex operations with ISAF support, 
and finally in June of last year, to taking the lead for 
security throughout the country. Since June of last year, they 
have held their own against the insurgents and have 
successfully planned and carried out a highly complex effort to 
protect polls and voters on election day, thwarting Taliban 
efforts to disrupt the first round of the elections.
    The electoral process to date is further reason for 
measured confidence in Afghanistan's future. For the first time 
in their history, on April 5 Afghans led every component of the 
electoral process. The security forces provided the security. 
The electoral bodies planned and administered the process, 
meeting nearly every deadline throughout the calendar, and 
Afghan media provided platforms for reasoned debate about 
policy and generally avoided inflammatory rhetoric. Afghan 
political elites formed multiethnic tickets and campaigned all 
across the country. And most importantly, enthusiasm for the 
democratic process and hope for their future brought millions 
of Afghans to the polls despite bad weather and, of course, 
Taliban threats.
    Similarly, Afghan electoral bodies have responded 
appropriately to allegations of fraud.
    Afghan youth, civil society groups, and women all played 
critical roles in the elections.
    The involvement of Afghan women in the elections, in 
particular, is a sign of a shift in attitude toward women 
nationwide. And as Secretary Kerry said in his speech at 
Georgetown last year, if I had to walk blind into a district in 
Afghanistan and could ask only one question to determine how 
secure it was and how much progress it was making, I would ask 
what proportion of girls here are able to go to school. There 
is no question investing in Afghan women is the surest way to 
guarantee that Afghanistan will sustain the gains of the last 
decade and never again be a safe haven for international 
terrorists.
    Sustaining progress through 2014 depends on continued 
growth of Afghanistan's governance and security institutions 
and continued support by the international community for a 
sovereign, stable, unified and democratic Afghanistan. Our 
assistance programs through the period of transition will 
remain focused on building the capacity of Afghan institutions 
to sustain the gains of the last decade, including continued 
support for Afghan women.
    Let me single out three factors in particular that can 
contribute to sustaining progress in Afghanistan. The first, of 
course, already mentioned is the bilateral security agreement 
which could allow for a limited post-2014 mission focused on 
training, advising, and assisting Afghan security forces and 
going after the remnants of core al-Qaeda.
    Second, the Government of Afghanistan needs to enact 
policies that will empower the private sector to grow the 
Afghan economy to make up for decreases in international 
assistance and to provide jobs for the large population of 
youth, increase government revenues to overcome the current 
fiscal gap between revenues and expenditures.
    Regional integration, the third factor, will also improve 
Afghanistan's economic process. And in particular, I would call 
attention to the Istanbul Process, an Afghan-launched and led 
mechanism from November 2011 which represents a step forward in 
terms of dialogue and cooperation between Afghanistan and its 
neighbors.
    The United States has been in Afghanistan for 13 years. We 
have invested billions of dollars and nearly 2,200 of our 
service men and women have sacrificed their lives so that 
extremists who attacked us on September 11 will not again 
threaten American territory, our citizens, or our allies from 
Afghan soil. Under President Obama, United States strategy and 
that of our international partners has aimed at strengthening 
Afghan institutions so that the Afghan Government and people 
can provide for their own security, grow their own economy, and 
manage their own internal and external affairs. The common 
element in all three of these transitions, security, economic, 
and political, has been the gradual and responsible transfer of 
leadership to Afghan hands. That remains our approach and it is 
working.
    Thank you.
    [The prepared statement of Mr. Blanc follows:]

                  Prepared Statement of Jarrett Blanc

    Chairman Kaine, Ranking Member Risch, members of the committee, 
thank you for the opportunity to appear before you today to discuss the 
future of Afghanistan beyond 2014 along with my colleagues, Deputy 
Assistant Secretary of State for South and Central Asia Fatema Sumar 
and USAID Deputy Assistant Administrator Kathleen Campbell.
    Allow me to begin by thanking the members of the subcommittee for 
your continued support for our mission. The American people have been 
generous, steadfast, and brave in supporting Afghanistan. We continue 
to make great sacrifices, and I would particularly like to honor the 
memories of the three American citizens killed last week at Cure 
International Hospital in Kabul along with the dedication of thousands 
of American men and women who have served in our Armed Forces, our 
diplomatic outposts, and our assistance programs in Afghanistan.
    The investments we have made in Afghanistan have paid important and 
underreported dividends. We began this mission in late 2001 to prevent 
Afghanistan from again being used to launch attacks against us. As part 
of an international coalition of more than 50 nations, we have helped 
make the world more secure since 2001, and as the major funders of an 
international civilian assistance effort, we have enabled the Afghans 
to rebuild their own capacity to provide security, educations, and jobs 
to their own people and become a reliable partner in efforts to prevent 
extremists from using their land to launch violence against our people 
and our allies.
    Our mission now is to make these gains sustainable by handing over 
to and supporting increasingly capable Afghan institutions. As we 
approach the end of the ISAF mission and the beginnings of the 
political transition to a new Afghan Government, I would like to 
describe evidence that Afghan institutions are precisely that--
increasingly capable and sustainable--and to outline the challenges 
that those institutions now face and the ways in which we and our 
partners can help them to overcome those challenges.
    Afghan confidence--and ours--begins with the performance of the 
Afghan National Security Forces (ANSF), the most highly regarded 
institution in Afghanistan. As the international community and the 
Afghan Government together envisioned at the 2010 NATO conference in 
Lisbon, the ANSF has progressed from supporting ISAF operations to 
conducting them jointly to leading complex operations with ISAF support 
to taking over the lead for security throughout the country, which 
formally took place nearly a year ago in June 2013. Since then they 
have held their own against the insurgents, secured major events like 
last fall's Loya Jirga, and successfully planned and carried out a 
highly complex effort to protect polls and voters on Election Day, 
thwarting Taliban attempts to disrupt the first round of the elections.
    The electoral process to date is further reason for measured 
confidence in Afghanistan's future. For the first time in their history 
on April 5, Afghans led every component of the electoral process. 
Afghan forces provided the security. Afghan electoral bodies planned 
and administered it, meeting nearly every deadline from candidate 
registration through release of the preliminary vote tallies. Afghan 
media provided platforms for reasoned debates about policy and 
generally avoided inflammatory rhetoric. Afghan civil society 
organizations and candidate agents monitored the polling centers. 
Afghan political elites formed multiethnic tickets and campaigned all 
across the country. Afghan institutions were not flawless but they were 
responsive, demonstrating significantly increased capacity from the 
2004 and 2009 elections. For example, on Election Day, as some polling 
centers reported running low on ballots, the Independent Election 
Commission (IEC) tapped prepositioned supplies of contingency ballots 
and kept the public informed with regular press conferences throughout 
the day. Most importantly, enthusiasm for the democratic process and 
hope for their future brought millions of Afghans out to vote despite 
bad weather and Taliban threats.
    Similarly, Afghan electoral bodies have responded appropriately to 
allegations of fraud. In accordance with electoral laws passed last 
year, the IEC has quarantined the ballots from centers where it 
believes further investigation is warranted, the Independent Electoral 
Complaints Commission (ECC) is adjudicating complaints of fraud, and 
candidates continue to refer allegations of irregularities to the 
appropriate authorities. If, as now seems highly likely, a second round 
is necessary, the competence, transparency, and impartiality of these 
bodies will be critical in ensuring that the Afghan people broadly 
accept President Karzai's successor as legitimate and credible.
    Afghan youth, civil society groups and women all played critical 
roles in the elections. Youth were active in all the major Presidential 
campaigns, reportedly turned out in large numbers to vote, and ran as 
candidates for many provincial council seats against older incumbents. 
Afghan civil society groups took responsibility for monitoring the 
elections, sending 12,000 trained observers to polling centers 
throughout the country, making sure procedures were followed and filing 
complaints and alerting news media when they were not. Afghan women 
also ran for provincial council seats (nationwide, 11 percent of the 
candidates were women), served as female searchers at polling stations, 
and also voted in large numbers, especially in urban areas. Nearly 2.5 
million Afghan women cast votes, 36 percent of the total. The Afghan 
Women's Network issued a statement thanking the national security 
forces for ``providing full support to all women during the election 
and facilitating a secure environment for people to go vote.''
    The involvement of Afghan women in the elections is visible sign of 
a shift in attitudes toward women nationwide. A recent Democracy 
International poll found that 92 percent of Afghans believe that women 
have the right to participate in elections; similarly, the Asia 
Foundation found that 83 percent of their respondents in Afghanistan 
said that women should have the same educational opportunities as men. 
It would be naive to underestimate the considerable social, economic, 
and legal challenges that still confront Afghan girls and women. These 
changes have not yet halted violence against women or opened enough 
schools to girls in every province and it will take many years for them 
to do so. Still, the elections and the shift in perceptions provide a 
basis for hope. As Secretary Kerry said in his speech at Georgetown 
last year: ``If I had to walk blind into a district in Afghanistan and 
I could only ask one question to determine how secure it was and how 
much progress it was making, I would ask, `What proportion of the girls 
here are able to go to school?' '' There's no question in my mind that 
investing in Afghan women is the surest way to guarantee that 
Afghanistan will sustain the gains of the last decade and never again 
become a safe haven for international terrorists.''
    Sustaining progress in Afghanistan after 2014 through the 
Transformation Decade depends on the continued growth of Afghanistan's 
governance and security institutions and continued support by the 
international community for a sovereign, stable, unified, and 
democratic Afghanistan. This partnership must be based on the 
principles of mutual respect and mutual accountability and should 
recognize the increasing responsibility of the sovereign Afghan state 
and a calibrated reduction of financial and other assistance from the 
international community. Stability requires Afghan progress on security 
and political goals which must be matched by effective governance, the 
advancement of rule of law, human rights, and economic reform. Our 
assistance programs through this period of transition will remain 
focused on building the capacity of Afghan institutions to sustain the 
gains of the last decade, including continued support for Afghan women.
    Let me single out three factors in particular that can contribute 
to sustaining progress in Afghanistan in the next decade. The first is 
the Bilateral Security Agreement (BSA). The BSA could allow a limited, 
post-2014 mission focused on training, advising, and assisting Afghan 
forces and going after the remnants of core al-Qaeda. Such a mission 
would further strengthen the ANSF in its fight against the Taliban and 
it would allow us to continue to deny terrorists opportunities to plan 
attacks against the United States, our interests, and our allies. 
President Obama has left open the possibility of concluding the BSA 
later this year with Karzai's successor. Both frontrunners have said 
publicly that they would sign it soon upon taking office.
    Second, the Government of Afghanistan needs to enact policies that 
will empower the private sector to grow the Afghan economy to make up 
for decreases in international assistance, provide jobs for its large 
population of youth, and increase government revenues to overcome the 
current fiscal gap between revenues and expenditures. The economic 
challenge is illustrated by flat government revenues over the last 2 
years, which reflect a number of factors, including a general slowdown 
in the economy and hesitation from potential investors (partly a 
response to uncertainty over the elections and the BSA). The Afghans 
have taken some steps in recent months to improve revenue collection 
though there is much work to be done. Corruption remains a fundamental 
challenge in Afghanistan to governance as well as economic growth--
something Afghans themselves recognize. Indeed, both frontrunners have 
advanced anticorruption agendas during the campaign and both have 
repeatedly spoken of the need to improve Afghanistan's infrastructure, 
establish the appropriate legal and security environment to attract 
foreign investment, and expand educational and technical training 
opportunities for Afghan youth.
    Regional integration, the third factor, will also improve 
Afghanistan's economic prospects. My colleague, Deputy Assistant 
Secretary Fatema Sumar, will discuss this topic in detail later in this 
briefing. However, let me provide some political context for it. The 
region's stability is inseparable from Afghanistan's stability and 
prosperity. The Istanbul Process, an Afghan-led mechanism launched in 
November 2011, represents a step forward in terms of dialogue and 
cooperation between Afghanistan and its neighbors. This emerging 
consensus is an important development in terms of the political and 
security trajectory of Afghanistan.
    The United States has been in Afghanistan for 13 years, we have 
invested billions of dollars, and nearly 2,200 of our service men and 
women have sacrificed their lives so that the extremists who attacked 
us on September 11 can never again threaten American territory, our 
citizens, or our allies from Afghan soil. Under President Obama, U.S. 
strategy and that of our international partners (as established in 
conferences in Bonn, Chicago, and Tokyo) has aimed at strengthening 
Afghan institutions so that the Afghan Government and people can 
provide for their own security, grow their own economy, and manage 
their own internal and external affairs. The common element in all 
three of these transitions--security, economic, and political--has been 
the gradual and responsible transfer of leadership to Afghan hands. 
That remains our approach and it is working.

    Senator Kaine. Thank you, Mr. Blanc.
    Ms. Sumar.

 STATEMENT OF FATEMA SUMAR, DEPUTY ASSISTANT SECRETARY, BUREAU 
 OF SOUTH AND CENTRAL ASIAN AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ms. Sumar. Chairman Kaine, Ranking Member Risch, it is a 
particular honor for me to be here today given my work on the 
committee from 2009 to 2013. So thank you for holding this 
timely hearing and inviting me to testify.
    I will summarize my remarks but ask that my written 
testimony be submitted into the official record.
    Senator Kaine. Without objection.
    Ms. Sumar. I will focus today on our efforts to promote 
regional economic connectivity between Central and South Asia 
through an initiative that we call the New Silk Road. As you 
know, Afghanistan has made tremendous strides over the past 12 
years. As a result of that progress, the region now has an 
opportunity to establish a new set of economic, security, and 
political relationships. This, in turn, will also support 
sustainable security and stability in Afghanistan.
    And I want to underscore that none of this would be made 
possible without the significant investments made possible in 
Afghanistan, thanks to the support from the U.S. Congress.
    There is no doubt that regional connectivity between 
Central and South Asia is difficult. This will take many years. 
It is the least economically integrated region in the world and 
geopolitical tensions abound. Barriers to trade remain high and 
many economic reforms are needed. Progress ultimately will 
depend on the countries themselves deciding that it is in their 
interests to work together to adopt global best practices.
    But despite these many challenges, it is telling that 
Afghanistan and its neighbors are championing certain aspects 
of this initiative. They are creating new north-south 
connections to complement vibrant east-west connections across 
Eurasia, including those pursued by Russia and China. By 
supporting their ability to make their own economic choices, we 
underscore longstanding U.S. support for the independence, 
sovereignty, and territorial integrity of states in this 
region.
    Under the leadership of Secretary Kerry, our New Silk Road 
initiative focuses on four key areas. The first is creating a 
regional energy market, bringing surplus energy from Central 
Asia to energy-dependent South Asia. The second is improving 
trade and transport routes across the region. The third is 
streamlining customs and border procedures to reduce the costs 
of doing business. And the fourth is connecting people and 
businesses across the region to connect new regional markets.
    By no means is the United States doing all of this alone. 
In fact, we work in direct partnership with countries in the 
region, international financial institutions, aid agencies, and 
others. And our programs complement and support regional 
priorities such as the Istanbul Process.
    Let me turn briefly to the first area, energy, where no 
sector represents a greater win-win across the region. With a 
population of more than 1.6 billion people, South Asia's demand 
for energy is growing. At the same time, Central Asia is a 
repository of vast energy resources, including oil, gas, and 
hydropower.
    To help create a regional energy market, the United States 
is supporting multiple projects, including CASA-1000, TUTAP, 
and TAPI. The World Bank's CASA-1000 project is an electricity 
transmission line that will enable Tajikistan and Kyrgyzstan to 
supply 1,300 megawatts of surplus summer hydropower to 
Afghanistan and Pakistan. The Asian Development Bank's TUTAP 
electricity project will facilitate the export of electricity 
from Turkmenistan, Uzbekistan, and Tajikistan to Afghanistan 
and eventually Pakistan.
    These projects have the power to be transformational. For 
the first time, Central Asia's vast energy resources will be 
supplied to an energy-dependent South Asia. And the fact that 
some of this is clean energy is even more compelling.
    The United States also supports the Turkmenistan-
Afghanistan-Pakistan-India natural gas pipeline, which you 
mentioned Senator Kaine, known as TAPI. If ultimately brought 
to fruition, this project would be a game changer for the 
Indian subcontinent.
    On the second area, trade and transport, we are focused on 
improving the legal and regulatory frameworks and removing 
impediments to trade and investments. Bringing states into 
multilateral trade institutions and getting neighbors to work 
together are critical steps for cooperation.
    On the third area, customs and borders, vibrant markets 
require functioning transit-trade corridors. We are working 
with regional partners to reduce border wait times, increase 
cooperation at key checkpoints and crossings, and prevent the 
transit of illegal and dangerous material. Our goal is to 
support open but secure borders throughout the region.
    Already trade is picking up as a result. In the last 5 
years alone, the volume of intraregional trade in Central Asia 
has increased by 49 percent. The average cost of crossing 
borders dropped 15 percent in the last 3 years. And thanks to 
United States technical assistance, trade is now moving across 
Afghan borders faster, down from 8 days in 2009 to 3\1/2\ hours 
in 2013.
    But ultimately, regional connectivity is about our fourth 
area, connecting people and businesses. We have funded the 
studies of hundreds of Central Asian and Afghan students across 
Central Asia in an effort to build the next generation of 
leaders, including women. Our women's symposiums in Central and 
South Asia have brought together women entrepreneurs, private 
sector partners, and government officials to advance 
opportunities for women. And we are making real progress 
connecting our businesses through regional trade forums such as 
the one we held in Islamabad 2 weeks ago and others in 
Kazakhstan, Kyrgyzstan, and Bangladesh. With our support, for 
instance, over 250 Kazakhstani, Uzbekistani, and Afghan 
businesses gathered in Afghanistan in February where they 
signed over $8 million in letters of intent for commercial 
sales.
    In conclusion, let me reiterate that while we will continue 
to face challenges on connecting this region, our New Silk Road 
initiative is a powerful vision for how Central and South Asia 
can fully participate in a 21st century global economy and 
benefit from gains from trade, but also honors the considerable 
investments Americans have made for over a decade in 
Afghanistan and the broader region by supporting security and 
stability for a more prosperous region.
    Thank you.
    [The prepared statement of Ms. Sumar follows:]

                 Prepared Statement of Fatema Z. Sumar

    Chairman Kaine, Ranking Member Risch, thank you for inviting me to 
testify today. It is a particular honor for me to appear before this 
committee, given my previous experience working on the Senate Foreign 
Relations Committee. And it is a privilege to speak alongside my 
colleagues, Jarrett Blanc and Kathleen Campbell, from the State 
Department and USAID.
    Mr. Chairman, the hearing you called today is particularly timely 
given the historic transition currently underway in Afghanistan, which 
my colleagues will speak to in greater detail. I will focus my 
testimony on the broader region to discuss how we are working to 
promote regional economic connectivity between Central and South Asia 
to promote greater regional stability and prosperity.
    Afghanistan has made tremendous strides over the past 12 years. As 
a result of that progress, the region has the opportunity to establish 
a new set of economic, security, and political relationships. This in 
turn will also support sustainable security and stability in 
Afghanistan. None of this work would be possible except for the 
foundation that has been laid by our investments in Afghanistan, thanks 
to the strong support from Congress. These investments have created the 
potential for a fundamental improvement in peace and security if we can 
build on them.
    As part of our efforts, the U.S. Government is promoting regional 
economic connectivity through our New Silk Road initiative. We know 
that peace and stability are much more likely to be sustained when 
countries in the region are tied together in trade, when their 
economies and people share important links.
    Mr. Chairman, there is no doubt that regional connectivity between 
Central and South Asia is difficult and will take many years. This is 
the least economically integrated region in the world, and geopolitical 
tensions abound. Barriers to trade remain high, and many economic 
reforms are needed to realize the full potential of regional 
cooperation. The international community and private sector can support 
investments in infrastructure and economic reforms, but progress 
ultimately will depend on countries themselves deciding it is in their 
interests to work together and adopting global best practices.
    Despite the many real challenges, it is telling that Afghanistan 
and its neighbors are embracing certain aspects of this initiative, 
creating new North-South transit and trade routes to complement vibrant 
East-West connections across Eurasia, including those pursued by China 
and Russia. Countries in the region know they have more to gain 
economically by working together than by being isolated. By supporting 
their ability to make their own economic choices and pursue their own 
interests, we underline longstanding U.S. support for the independence, 
sovereignty, and territorial integrity of states in the region.
    Under the leadership of Secretary Kerry, our New Silk Road 
initiative focuses on four areas to link Central Asia with South Asia 
through Afghanistan by:
          (1) Creating a regional energy market bringing surplus energy 
        from Central Asia to energy-dependent South Asia;
          (2) Improving trade and transport routes across the region;
          (3) Streamlining customs and border procedures to reduce the 
        costs of doing business; and
          (4) Connecting businesses and people across new regional 
        markets.
    By no means is the United States doing all of this alone. In fact, 
we work in partnership with countries in the region, international 
financial institutions such as the World Bank and Asian Development 
Bank, aid agencies, and others. And our programs support and complement 
regional priorities set forth by the Istanbul Process, the Regional 
Economic Cooperation Conference on Afghanistan (RECCA), and the Central 
Asia Regional Economic Cooperation Program (CAREC).
                                 energy
    Perhaps no sector represents a ``win-win'' for Central and South 
Asia more than energy. With a population of more than 1.6 billion 
people, South Asia's economies are growing rapidly, and in turn South 
Asia's demand for inexpensive, efficient, and reliable energy is 
growing. At the same time, Central Asia is a repository of vast energy 
resources--including oil, gas, and hydropower.
    To help create a regional energy market, the United States is 
supporting the World Bank's CASA-1000 electricity transmission project. 
When completed, CASA-1000 will enable Tajikistan and Kyrgyzstan to 
supply 1,300 megawatts of surplus summer hydropower to Afghanistan and 
Pakistan. CASA has the potential to be transformational. For the first 
time, Central Asia's vast energy resources will be supplied to an 
energy-starved South Asia. And the fact that it is clean energy is even 
more compelling.
    We have seen major advances on CASA in the past months. The four 
CASA countries have made progress in their negotiations to finalize a 
Power Purchasing Agreement. The World Bank, CASA's lead donor, recently 
approved its $526 million contribution to CASA. And the U.S. Government 
has agreed to provide $15 million in project financing for CASA, 
subject to continued appropriations from Congress. Our contribution 
should encourage other donors to come forward and fill CASA's remaining 
funding gap.
    We are also working closely with the Asian Development Bank to 
support its TUTAP electricity project which brings exports of 
electricity from Turkmenistan, Uzbekistan, and Tajikistan to 
Afghanistan and eventually Pakistan. By 2018, exports from the Central 
Asian countries to Afghanistan will reach a capacity of 900 to 1,100 
megawatts, with year-round supply from Turkmenistan and Uzbekistan 
balancing summer supplies from Tajikistan.
    The United States also supports the Turkmenistan-Afghanistan-
Pakistan-India natural gas pipeline--known as TAPI. If ultimately 
brought to fruition, this project would be a game changer for the 
Indian subcontinent. We have a long way to go, and much is dependent on 
the will and flexibility of the Government of Turkmenistan in taking 
the necessary steps forward to bring TAPI to the next stage.
                          trade and transport
    Improving the legal and regulatory framework, removing impediments 
to trade and investment, combating corruption and breaking down 
barriers to trade are necessary preconditions for trade and investment 
connectivity in the region. Bringing states into multilateral trade 
institutions and getting neighbors to work together to break down 
institutional and bureaucratic barriers to trade are critical steps for 
regional economic cooperation. Cooperation on customs and transit is 
further advanced by new transit-trade agreements between Afghanistan 
and its neighbors, under discussion or early in the implementation 
stage.
    This is why the U.S. Government is assisting Afghanistan and 
Kazakhstan in their efforts to accede to the World Trade Organization 
(WTO) and helping WTO members Tajikistan and Kyrgyzstan fully realize 
the benefits of accession. We are also working to operationalize the 
Afghanistan-Pakistan Transit Trade Agreement (APTTA) and to encourage 
full implementation of the Cross-Border Transport Agreement between 
Afghanistan, Kyrgyzstan, and Tajikistan. These agreements hold the 
potential to dramatically accelerate regional trade.
    The United States also works on improving the trade and investment 
climate throughout the region through our Trade and Investment 
Framework Agreement (TIFA) talks with Central Asian states, 
Afghanistan, and Pakistan.
    Clearly, one of the biggest obstacles to connecting Central Asia to 
the rapidly growing markets of South Asia is the barriers between India 
and Pakistan. Trade normalization between these historic rivals would 
be a game-changer, signaling to the region and the world South Asia is 
really open for business. We have been encouraged by positive signs 
from Islamabad and New Delhi that things may be moving in the right 
direction, and we are hopeful we will see movement following India's 
election.
                          customs and borders
    Vibrant markets require functioning transit-trade corridors. 
Regional economic cooperation with Afghanistan requires a commitment by 
governments in the region to allow trade to flow across open but secure 
borders and reduce the costs and time of doing business at the borders.
    To support these goals, the United States is working with 
governments and donor partners to streamline customs procedures and 
increase cross-border information-sharing throughout the region. The 
United States supports the ongoing efforts of the European Union's 
Border Management in Central Asia (BOMCA) and Border Management in 
Afghanistan (BOMNAF) programs, the Central Asia Border Security 
Initiative (CABSI), the World Customs Organization, the Organization 
for Security and Cooperation in Europe (OSCE), and the U.N. Office of 
Drugs and Crime (UNODC) to improve information-sharing and law 
enforcement cooperation.
    Already, trade is picking up as a result. In the last 5 years, the 
volume of intraregional trade in Central Asia has increased by 49 
percent. The costs of doing business are slowly coming down, with the 
average cost of crossing borders dropping 15 percent in the last 3 
years. And thanks to U.S. technical assistance, customs procedures have 
been streamlined at seven Afghan border crossing points, resulting in 
expedited trade with average release time down from 8 days in 2009 to 
3\1/2\ hours in 2013, saving $38 million annually.
                         businesses and people
    Ultimately, regional economic connectivity is more than 
infrastructure, border crossings, and the movement of goods and 
services. At its heart is the importance of connecting people and 
businesses across historical, cultural, ethnic, and national borders. 
The sharing of ideas and expansion of economic markets also creates 
opportunities for youth and women and strengthens regional stability 
and prosperity.
    This is why the United States has funded the studies of hundreds of 
Central Asian and Afghan undergraduate and graduate students across 
Central Asia in an effort to build the next generation of leaders. The 
U.S.-organized Central Asia-Afghanistan Women's Economic Symposium and 
South Asia Women's Entrepreneurship Symposium have brought together 
women entrepreneurs, private sector partners, and government officials 
to address shared obstacles and advance opportunities for women 
entrepreneurs.
    With U.S. support, over 250 Afghan, Kazakhstani, and Uzbekistani 
business people gathered in Afghanistan, signing over $8 million in 
letters of intent for commercial sales. Just 2 weeks ago, Central 
Asian, Afghan, and Pakistani businesses signed 16 Memorandums of 
Understanding at the Central Asian Business Opportunities Conference in 
Islamabad. Similar U.S.-sponsored events in Kazakhstan, Afghanistan, 
Kyrgyzstan, and Bangladesh have successfully brought together hundreds 
of South and Central Asian businesses and entrepreneurs, including 
women, generating millions in trade and fostering important 
relationships across political, religious, and ethnic lines. We will 
continue to support programs that connect businesses and people across 
the region, creating new markets for goods and opportunities for trade 
and innovation.
                               conclusion
    Mr. Chairman, regional economic connectivity between Central and 
South Asia is not easy. We will continue to face challenges and 
setbacks, even as we achieve progress. But the New Silk Road initiative 
provides the region with a powerful vision for how it can fully 
participate in a 21st century global economy and benefit from the gains 
from trade. It also honors the considerable investments Americans have 
made for over a decade in Afghanistan and the broader region by 
supporting security and stability for a more prosperous region.

    Senator Kaine. Thank you, Ms. Sumar.
    Ms. Campbell.

STATEMENT OF KATHLEEN CAMPBELL, ACTING DEPUTY ASSISTANT TO THE 
ADMINISTRATOR, OFFICE OF AFGHANISTAN AND PAKISTAN AFFAIRS, U.S. 
      AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Ms. Campbell. Chairman Kaine, Ranking Member Risch, and 
members of the subcommittee, thank you for the opportunity to 
testify today on the role of USAID in Afghanistan beyond 2014. 
Our work in Afghanistan is emblematic of our agency's overall 
mission: USAID partners to end extreme poverty and promote 
resilient, democratic societies while advancing our security 
and prosperity. USAID's role in Afghanistan is to promote a 
stable, inclusive, and increasingly prosperous country.
    This is a critical moment in Afghanistan's history, and 
USAID is working with the Afghan people and our international 
partners to do all we can to ensure this transition goes as 
smoothly as possible and that Afghanistan emerges as a stable 
country on a path toward self-sufficiency.
    We understand fully that the fiscal reality our Nation 
faces at home means that resources available for Afghanistan 
will decline over time. Weaning Afghanistan from extraordinary 
levels of assistance is necessary for us and essential for 
them. To achieve this without triggering a crisis, we must 
remain a strong partner and continue to provide assistance in 
areas critical to Afghan development and stability.
    I first visited Afghanistan in early 2002 and worked there 
until 2005. So I know from personal experience that the 
progress Afghans have made is remarkable but still fragile.
    USAID's development assistance, which represents 
approximately 3 percent of the total military and civilian 
financial cost of the war in Afghanistan, has helped Afghans 
achieve gains ranging from a tenfold increase in the number of 
children enrolled in school to a 20-year increase in life 
expectancy, as well as a fivefold increase in per capita GDP. 
The Afghan media is robust. Women have campaigned prominently 
and turned out in record numbers in this recent election. 
Parliament increasingly exercises its oversight authority. 
These are extraordinary gains for a country that in 2002 had 
virtually no access to reliable electricity, roads, or modern 
communications and disadvantaged almost half of its population, 
its women and girls, by prohibiting them from contributing to 
Afghan society and the economy.
    USAID's strategy going forward calls for making durable the 
significant achievements in health, education, and women, 
focusing on economic growth and fiscal sustainability to 
mitigate the economic impact of the troop withdrawal, and the 
declining levels of donor assistance, and supporting legitimate 
and effective Afghan governance and, in turn, promoting 
stability. USAID has also adjusted its implementation model to 
meet the challenges of transition.
    While significant progress has been made to date, there is 
still much to be done to strengthen the critical role that 
women, youth, and civil society play in Afghanistan's future. 
USAID is supporting women including through the launch of 
USAID's largest gender program which will empower women to 
participate fully in the economic, political, and civil society 
sectors.
    In recognition of the fact that youth are integral to the 
future stability of Afghanistan, USAID is supporting the 
provision of market-driven job skills, business training, 
access to credit, business development support, and job 
placement services.
    USAID's assistance also supports the development of a 
strong and active civil society to enhance the political 
process, solve community problems, and advocate for good 
governance. With USAID's support, civil society organizations 
have played a critical role in the 2014 election to date.
    Direct assistance to the Afghan Government is used to build 
the Afghan Government's ability to sustain these investments 
and gains that have been made and to reduce its dependence on 
donors. All direct assistance to the Afghan Government is 
subject to strict safeguards and oversight.
    To ensure strong oversight of United States assistance 
funds, USAID developed the Accountable Assistance for 
Afghanistan, or A3 initiative, which, combined with standard 
USAID oversight measures, prevents funds from being diverted 
from their development purpose by malign actors. We do not 
assume that there is any level of acceptable waste, fraud, or 
abuse in our programs.
    In conclusion, to secure our overall national security 
objectives, USAID remains committed to ensuring that the 
remarkable progress made in Afghanistan is sustained and made 
durable. The risks and the sacrifices that the people of the 
United States have made in Afghanistan and the determination of 
the Afghan people, particularly women, demand no less.
    I look forward to answering any questions you have. Thank 
you.
    [The prepared statement of Ms. Campbell follows:]

                Prepared Statement of Kathleen Campbell

    Chairman Kaine, Ranking Member Risch, and members of the 
subcommittee, thank you for allowing me the opportunity to testify 
before you today to discuss the role of the U.S. Agency for 
International Development (USAID) in support of U.S. civilian 
development efforts in Afghanistan looking at 2014 and beyond. Our work 
in Afghanistan is emblematic of our agency's overall mission: USAID 
partners to end extreme poverty and promote resilient, democratic 
societies while advancing our security and prosperity. USAID's role in 
Afghanistan is to promote a stable, inclusive, and increasingly 
prosperous country. During the past decade, Afghanistan has made 
remarkable development gains across multiple sectors, thanks to the 
whole-of-government efforts of the United States, along with our 
international partners, the Afghan Government and the Afghan people. It 
is an honor to appear before you today with Deputy Assistant Secretary 
of State for South and Central Asian Affairs Fatema Sumar, and Deputy 
Special Representative for Afghanistan and Pakistan Jarrett Blanc.
    2014 is a pivotal year for Afghanistan as the country navigates a 
series of three transitions: the first democratic transfer of power in 
Afghanistan's history; the completion of the security transition, 
including the withdrawal of a majority of international troops; and the 
continuing effort to reduce Afghanistan's reliance on international aid 
by facilitating private sector-led economic growth. This is a critical 
moment in Afghanistan's history, and USAID is working with the Afghan 
people and our international partners to do all we can to ensure these 
transitions go as smoothly as possible, and that Afghanistan emerges as 
a stable country on a path toward self-sufficiency.
    We understand fully that the fiscal reality our Nation faces at 
home means that resources available for Afghanistan will decline over 
time. Weaning Afghanistan from extraordinary levels of assistance is 
necessary for us, and essential for them. To achieve this without 
triggering a crisis, we must remain a strong partner and continue to 
provide assistance in areas critical to Afghan development and 
stability. To do this with fewer resources, we are making tough 
decisions and prioritizing investments that have the greatest potential 
for long-term sustainability. As USAID navigates through the 2014 
transition period and beyond, we are committed to expending every 
effort to safeguard taxpayer funds and ensure that the development 
progress in Afghanistan is maintained and made durable.
    Looking to 2015 and beyond, USAID will continue to pursue America's 
goal of an inclusive, stable Afghanistan, and to support Afghanistan's 
goals, as described in the Afghan National Priority Programs, the 
bilateral Strategic Partnership Agreement and at the Tokyo Conference 
in July 2012. These goals include increased Afghan ownership of their 
development, reduced dependence on foreign aid, improved delivery of 
services by the Afghan Government, and the promotion of democracy, 
fundamental freedoms, and human rights. Afghanistan has made important 
progress in key areas like establishing a sound electoral framework and 
improving budget transparency. While much more progress is needed in 
various areas, the political transition represented by the Presidential 
election presents an opportunity for further reforms.
    In support of these goals for Afghanistan, USAID's strategy going 
forward calls for making durable the significant achievements in 
health, education, and for women; focusing on economic growth and 
fiscal sustainability to mitigate the economic impact of the troop 
withdrawal and declining levels of civilian assistance; and supporting 
legitimate and effective Afghan governance, and in turn promoting 
stability.
    I first visited Afghanistan in early 2002 and lived and worked 
there until 2005 as head of the International Rescue Committee in 
Afghanistan. In 2002 when I arrived, buildings were in ruin throughout 
the city; wrecked planes littered the airport; there were no phones, 
few shops, and three currencies; driving through the Shomali plain 
outside Kabul, red stones edged the highway warning people away from 
fields of land mines scattered amongst destroyed grape vines and 
orchards. Afghanistan has made considerable progress over the ensuing 
12 years. Afghan businesses are now exporting an increasing number of 
agriculture commodities; Afghans have become active participants in 
their government, making their voices heard in elections while 
advocating for needed reforms; and they have experienced tremendous 
gains in access and quality of health and education services.
    I bring these perspectives to USAID's work today, and I know from 
personal experience that the dramatic progress Afghans have made is 
remarkable, yet still fragile. That is why USAID has been planning and 
adjusting its programming for years in anticipation of the transitions 
in 2014, to maximize sustainability and ensure oversight and 
accountability of the resources the American people have provided in 
support of Afghanistan.
                        usaid impact and results
    USAID's development assistance, which represents approximately 3 
percent of the total military and civilian financial cost of the war in 
Afghanistan, has helped Afghans achieve gains ranging from a tenfold 
increase in the number of children enrolled in school, to a 20-year 
increase in life expectancy, as well as fivefold increase in per capita 
GDP. These are extraordinary gains for a country that in 2002 had 
virtually no access to reliable electricity, roads or modern 
telecommunications, and disadvantaged almost half of its population--
women and girls--by prohibiting them from contributing fully to Afghan 
society and the economy. Specific examples of how USAID has supported 
meaningful gains in Afghanistan that have contributed to extraordinary 
results are as follows:

  <bullet> Health: Life expectancy has increased from 42 years to over 
        62 years since 2002; the maternal mortality rate has declined 
        by 80 percent from 1,600 to 327 deaths per 100,000 births; and 
        child mortality decreased by 44 percent from 172 to 97 deaths 
        per 1,000 live births.
  <bullet> Education: In 2002, there were approximately 900,000 Afghan 
        children in school, and virtually none were girls. Today, 
        approximately 8 million children are registered to attend 
        school and more than one-third of them are girls.
  <bullet> Economic Growth: Afghan Government revenues have more than 
        doubled from 2002 to 2013. Revenue from customs has been the 
        fastest growing segment, increasing over 400 percent since 
        2006. The estimated Afghan GDP in 2011 was $23.6 billion, more 
        than six times higher than in 2002, representing a 9 percent 
        per year average increase. Afghanistan's overall ranking in the 
        2014 World Bank/IFC ``Doing Business'' Index improved from 170 
        to 164 (out of 189 countries).
  <bullet> Mobile Technology: in 2002, there were few fixed telephone 
        lines and making calls outside of Afghanistan required a 
        satellite phone. Today, the combined phone network covers 90 
        percent of the Afghan population. Eighty-five percent of women 
        have access to a mobile phone. The telecommunications sector is 
        Afghanistan's greatest source of foreign direct investment, 
        largest remitter of taxes to the government, and biggest licit 
        employer, providing jobs for 100,000 Afghans.

    The Afghan people recognize the progress that has been made. For 
the past 9 years, The Asia Foundation, with support from USAID, has 
conducted a nationwide survey of Afghan attitudes and opinions, 
tracking trends among the population. The results of the 2013 survey 
show the impact these gains are making. Fifty-seven percent of all 
Afghans said they believe their country is moving in the right 
direction. This number has increased steadily since 2008, when it stood 
at 38 percent. Not surprisingly, the vast majority--88 percent--said 
they were better off economically than they were under the Taliban. 
Five in six Afghans--men and women--believe that women should have an 
education. Seventy-five percent believe it is acceptable to criticize 
the government in public--a sign of an active democracy with an 
independent media, which is the civilian institution in which Afghans 
have the most confidence.
    Afghanistan has also made significant gains in governance, though 
much more is needed. Afghanistan enacted a constitution in 2004 that 
enshrines democratic principles, women's rights, and freedom of 
expression. The Afghan media is robust, diverse, and independent. 
Afghanistan's Parliament is 25 percent female and women have campaigned 
prominently and turned out in record numbers in this recent election. 
The Parliament increasingly exercises its oversight authority over key 
appointments and over the budget. More reforms are needed, but the 
basic foundation of self-governance is strong.
                          usaid moving forward
    USAID understands the challenges facing Afghanistan. In 
anticipation of this transitional year, as well as 2015 and beyond, 
USAID has regularly reviewed and adjusted its programs to ensure that 
they advance the strategic objectives of the United States and are 
achievable and sustainable. USAID's strategy in Afghanistan is 
threefold:

  <bullet> Maintaining and making durable the gains made in health, 
        education, and for women;
  <bullet> Supporting continued economic growth and employment through 
        a focus on the agriculture sector and private sector 
        development, operations and maintenance of infrastructure 
        investments, and responsibly developing the extractives 
        industry, all key to ensuring future fiscal sustainability; 
        and,
  <bullet> Fostering legitimate and effective Afghan governance, 
        including support for the 2014 Presidential and 2015 
        parliamentary elections, the rule of law, and a robust civil 
        society.

    Operationally, USAID has adjusted its implementation model to 
improve sustainability and meet the challenges presented by the 
transition.

  <bullet> Developing a multitiered monitoring strategy to address 
        reduced mobility and decreased field staff that, along with 
        other monitoring and evaluation efforts, will continue to 
        ensure appropriate oversight of projects;
  <bullet> Transforming USAID's approach in Afghanistan to one of 
        mutual accountability that incentivizes Afghan reforms by 
        conditioning an increasing percentage of our assistance to the 
        government on progress on reforms and that continues to 
        increase government involvement and ownership of development 
        needs; and
  <bullet> Focusing on long-term sustainability through implementing 
        USAID policies on sustainability, including the principles of: 
        (1) increasing Afghan ownership and capacity; (2) contributing 
        to community stability and public confidence in the Government 
        of Afghanistan; and (3) implementing effective and cost-
        efficient programming.

    USAID is also focusing its assistance to encourage regional 
integration to strengthen economic ties between Afghanistan and its 
neighbors in an effort to bring greater prosperity and also greater 
stability to the region. USAID is laying the groundwork for a more 
economically connected region by facilitating trade, providing 
technical assistance for regional energy projects such as the World 
Bank's Central Asia and South Asia (CASA)-1000 project, promoting 
business-to-business networking and helping countries address other 
border issues, including countering trafficking in persons.
    For example, USAID's Afghanistan Trade and Revenue project is 
working with the Government of Afghanistan to achieve World Trade 
Organization accession, promote trade agreements and private sector 
linkages throughout South and Central Asia, and to strengthen the 
government's ability to generate revenue from trade and legitimate 
taxation. Just 2 weeks ago, USAID sponsored the Central Asian Business 
Opportunities Conference in Islamabad, a business-to-business 
networking event that included over 300 participants from Pakistan, 
Afghanistan, and the five Central Asian countries. Progress was made on 
some of the technical challenges of regional trade. We will continue to 
engage on building regional economic linkages at the Astana Economic 
Forum next month. This effort requires developing technical know-how, 
political agreement, and, in some cases, physical infrastructure, 
agreements, and policies that meet international standards. It is one 
of the ways we are assisting Afghanistan stand on its feet as a viable 
economic partner in its region.
    USAID is constantly reviewing and evaluating its portfolio to 
ensure maximum impact in coordination with the U.S. Government 
interagency and the Afghan Government, including through a semiannual 
portfolio review process. For example, as a result of internal USAID 
reviews and in consultation with the Afghan Government, USAID 
determined that an activity supporting access to credit for agriculture 
in southern Afghanistan was not delivering the desired results. USAID 
de-scoped that activity and reprogrammed the funds to other elements of 
the program that continue to deliver results. The lessons learned from 
that agriculture activity have helped inform the design of new USAID 
agriculture programs that focus on strengthening value chains 
throughout Afghanistan. We are also leveraging the ongoing work and 
expertise of our colleagues at the Commerce Department, the Overseas 
Private Investment Corporation, and the Office of the U.S. Trade 
Representative, to ensure a coordinated and effective effort.
       supporting women, youth, and civil society in afghanistan
    While significant progress has been made to date, there is still 
much work to be done in Afghanistan related to strengthening the 
critical role that women, youth, and civil society play in 
Afghanistan's governance and its future.
Women
    Women, while much more active in society than in 2001, still face 
many challenges. The Asia Foundation Survey found that the most 
pressing problems for women, as identified by Afghans, include 
education and illiteracy, lack of job opportunities for women, and 
women's legal rights. Looking to 2015 and beyond, USAID is aiming to 
solidify gains for women by further integrating them into projects 
across all of the sectors in which USAID works to ensure their access 
to increased opportunities for economic independence, education, 
improved health, and participation in democratic processes. USAID is 
supporting these opportunities in a number of ways, including through 
the launch of USAID's largest gender program in the world, known as 
``Promote.'' This program will develop a cadre of educated Afghan women 
between the ages of 18 and 30, empowering them to fully participate in 
the economic, political, and civil society sectors of Afghan society: 
it will help women establish and/or expand small- to medium-sized 
businesses; help civil society organizations increase their knowledge 
and skills so they can better support women's rights, outreach and 
advocacy campaigns; facilitate fellowships with relevant Afghan 
Government ministries and agencies with a goal of achieving a critical 
mass of women in the civil service; and train women in the public, 
private, and civil service sectors in management and leadership. In 
addition to Promote, Afghanistan is in the vanguard of USAID's 
agencywide Gender Equality and Female Empowerment policy, which 
requires that all USAID projects undergo gender analyses to identify 
gender-based disparities in access to opportunities. To date, more than 
40 gender analyses have been completed in Afghanistan, to determine how 
best to integrate women into USAID projects across all sectors. These 
efforts compliment the work of other agencies such as the U.S. Trade 
Representative, which signed Memorandum of Understanding on Joint 
Efforts to Enable the Economic Empowerment of Women and Promote Women's 
Entrepreneurship with the Government of Afghanistan last year.
Youth
    Afghanistan is facing a rapidly growing population and out of a 
population of almost 30 million people, 68 percent are under the age of 
25. In recognition of the fact that youth are integral to the future 
stability of Afghanistan, USAID is providing support to this segment of 
society by improving access to education, increasing technical and 
vocational education and training opportunities, and establishing 2- 
and 4-year post-secondary programs. In addition to working with the 
Afghan Government to improve the relevance of academic programs to the 
labor market, USAID is aiming to increase the provision of market-
driven job skills and business training, access to credit, business 
development support, and job placement services. Through its 
Afghanistan Workforce Development Program, USAID projects that 25,000 
Afghans will be trained and/or placed in jobs, many of whom will be 
women and youth.
Civil Society
    A vibrant civil society in Afghanistan is critically important to 
establishing effective bridges between the Afghan Government and 
citizens, serving as active observers and watch dogs, and participating 
in government policymaking and service delivery through robust 
advocacy. USAID's assistance supports the development of a strong and 
active civil society sector to help Afghan citizens more effectively 
participate in the political process, solve community problems, and 
advocate for good governance. With USAID support, civil society 
organizations have played a critical role in the 2014 election to date, 
deploying thousands of election observers across the country. Civil 
society organizations have also played an unprecedented role in 
organizing citizens across the country to identify their top priorities 
for the next administration and distilling those priorities into a 
candidate pledge, which was signed by a majority of Afghan Presidential 
candidates. These candidates committed themselves to support policy 
recommendations involving peace and stability, social and economic 
development and human rights and good governance. This is the first 
time a Presidential candidate pledge has been utilized in Afghanistan 
at this scale. Looking to 2015 and beyond, USAID will continue to help 
strengthen the gains civil society has made to date.
                      oversight and accountability
    USAID has learned important lessons over its 12-year engagement, 
and has drawn on experiences in other challenging environments, 
including Iraq, Pakistan, Yemen, Sudan, and Colombia, to ensure strong 
oversight of U.S. assistance funds.
    In addition to standard USAID oversight measures implemented 
worldwide, USAID has implemented the Accountable Assistance for 
Afghanistan (A3) initiative, designed to prevent funds from being 
diverted from the development purpose to malign actors. Some of the 
approaches USAID employs under A3 include:

    1. Award Mechanisms--We rely less on large agreements and have 
increased the number of smaller and more flexible agreements. We are 
also utilizing assistance awards that provide the most visibility on 
project costs, such as cost-reimbursable contracts and limiting layers 
of subcontracts to two.
    2. Partner Vetting--The USAID Mission established a Vetting Support 
Unit in February 2011. The unit conducts checks on non-U.S. companies 
and non-U.S. key individuals for prime contractors, subcontractors, 
grant recipients and subgrantees to determine whether or not they are 
associated with known malign entities or individuals. We have kept over 
$49 million from being awarded to those who did not meet our vetting 
requirements.
    3. Financial Controls--We are enhancing controls on project funds, 
such as using electronic funds transfers in lieu of cash payments, 
using independent financial monitors to verify appropriate usage of 
funds, ensuring close review of recipients' claims prior to payment, 
and performing audits of locally incurred cost.
    4. Project Oversight--USAID uses a multitiered monitoring approach 
that includes, as appropriate, independent monitoring contractors; 
observation by U.S. Government staff; reporting by implementing 
partners, local nongovernmental organizations and civil society; and 
use of technological tools, such as time- and date-stamped photos. By 
using multiple sources of monitoring data, USAID can compare 
information received from separate sources to ensure the greatest 
degree of oversight possible.

    USAID's multitiered monitoring approach focuses on gathering and 
analyzing multiple sources of data across those tiers in order to 
compare information and ensure confidence in reporting data, allowing 
USAID to use the results to make further programmatic decisions. 
Supporting this approach is the new Implementation Support Team (IST). 
This team is charged with providing an additional layer of critical 
review and analysis, on a cross-sectoral basis, for the streams of 
monitoring information collected and for providing USAID leadership and 
program managers with advice for addressing challenges in project 
implementation.
    Building on past monitoring and evaluation activities in 
Afghanistan, USAID has recently issued a request for proposals for the 
new Monitoring Support Project. This request was issued following 
extensive consultations with international donors, Congress, and 
implementing partners as well as a comprehensive analysis of USAID's 
experience using independent monitoring around the world. This project 
will utilize a variety of monitoring methods to verify project data, 
including site visits, GPS and time/date stamped photos, interviews, 
and crowd-sourcing. Independent monitoring, however, is not the sole 
source of monitoring data. And, it will not take the place of USAID 
staff as project managers. Instead, it is one tool that USAID can use 
to validate reporting data from other sources. Should USAID determine 
that its multitiered monitoring approach cannot provide adequate 
oversight over project activities, it will not hesitate to terminate or 
de-scope projects.
    Audits provide useful oversight and discipline, and complement and 
reinforce USAID's own efforts to ensure U.S. tax dollars are used 
effectively and efficiently. There are currently over 100 on-going 
audits of USAID programs in Afghanistan. In fiscal year 2013, the U.S. 
Government Accountability Office, USAID Office of Inspector General, 
and the Special Inspector General for Afghanistan Reconstruction 
completed over 65 financial and program audits in Afghanistan.
    Although there are inherent risks in doing business in a country 
like Afghanistan, we prioritize the effective and accountable use of 
taxpayer dollars and do not assume that there is any level of 
acceptable fraud, waste, or abuse in our programs. This means that 
oversight must be a process of continual re-examination of ongoing 
efforts, and that there must be flexibility to adjust to new 
circumstances as they arise.
                    direct assistance in afghanistan
    Direct assistance to the Afghan Government is used to build the 
Afghan Government's ability to sustain the investments and gains that 
have been made over the last decade and to reduce its dependence on 
donors. As the U.S. transitions its programs in Afghanistan, 
Afghanistan must continue to build its capacity to govern and provide 
services to its people. Providing funds directly is a critical way in 
which to accomplish this goal. At the same time, USAID has put in place 
stringent measures to safeguard taxpayer funds, and only works with 
those Afghan ministries in which USAID believes it can responsibly 
mitigate risk. This is in keeping with commitments made by both the 
previous and current U.S. administrations to increase our work through 
local governments and organizations, not just in Afghanistan but around 
the world. Such work is critically important to fulfill the ultimate 
goal of assistance, namely helping countries stand on their own two 
feet.
    USAID implements direct assistance in Afghanistan through two 
mechanisms: multilateral trust funds, such as the Afghanistan 
Reconstruction Trust Fund (ARTF) managed by the World Bank, and through 
bilateral direct assistance agreements with specific Afghan ministries. 
Of the approximately $17.5 billion in obligated USAID funds for 
Afghanistan since 2001, about 5 percent, or $770 million, is allocated 
for direct assistance with the Afghan Government, of which USAID has 
disbursed $283 million. About half of all funds thus far disbursed are 
for health sector programming. USAID only disburses money as direct 
assistance to the Afghan Government after substantial conditions are 
met to ensure the funds will be responsibly and accountably managed and 
tracked.
    USAID has a rigorous system of oversight for its direct assistance 
programming with the Afghan Government. USAID conducts assessments to 
identify the strengths and weaknesses of each ministry for which a 
direct assistance project is being contemplated. These assessments 
review a ministry's basic procurement, financial and human resource 
systems and are followed by a USAID-conducted internal assessment of 
the risks associated with working with the ministry. To date, USAID has 
contracted accounting firms to conduct 16 ministry assessments. From 
these assessments, USAID has decided to provide direct assistance to 
seven ministries to implement a specific project. After the assessment 
and review, we then build our mitigating measures and safeguards 
accordingly to each project that we conduct with the specific ministry 
or agency to ensure risks associated with the project are mitigated. At 
the same time, through technical assistance, we also seek to build 
Afghan systems that will be able to prevent fraud, waste, or abuse on 
their own.
    For direct assistance, USAID utilizes multiple levels of protection 
to mitigate risks to taxpayer funds. These measures may include, but 
are not limited to:

  <bullet> Requiring the establishment of a noncommingled, separate 
        bank account for each project with USAID;
  <bullet> Disbursement of funds only after USAID has verified that the 
        ministry has achieved a performance milestone or USAID has 
        verified incurred costs;
  <bullet> An annual audit by a USAID OIG-approved firm;
  <bullet> Substantial involvement and oversight by USAID staff in 
        procurement processes;
  <bullet> Independent management, monitoring, and evaluation of 
        services; and
  <bullet> Technical assistance through other projects to increase the 
        capacity of ministries while addressing any vulnerabilities or 
        weaknesses identified in the assessments.

    All direct assistance requires compliance with USAID accountability 
and oversight procedures, including site visits. Ministries are 
required to fully comply with the conditions precedent prior to and 
throughout the disbursement process. If Afghan ministries fail to 
adhere to these conditions, the agreements are subject to immediate 
suspension or termination.
    For example, USAID has worked closely with Afghanistan's energy 
utility, Da Afghanistan Breshna Sherkat (DABS), to assess its financial 
management systems, audit its progress and monitor results. USAID 
negotiated a series of preconditions and financial controls pursuant to 
the launch of a $75 million program to install a turbine at Kajaki dam. 
In addition to the tight financial controls implemented with DABS, 
USAID has been involved in every step of the procurement and 
implementation process to ensure that results are being delivered as 
planned. Payments of $1.6 million have been made by DABS to the 
implementing contractors only after being verified financially and 
technically as appropriate for the delivery of the goods or services in 
question. This project also includes a phased approach, with 
increasingly more significant parts of the project being undertaken 
only after a thorough review of the previous phase to ensure both 
financial and technical aspects of the project proceed properly.
                               conclusion
    USAID understands the risks and the sacrifices that Americans, our 
troops, diplomats, and their families take every day to serve in 
Afghanistan, whether in a military capacity, as a government civilian, 
or as an implementing partner. Since 2001, 434 people working for USAID 
partner organizations in Afghanistan have been killed and another 768 
wounded.
    Throughout our efforts, we are applying important lessons from the 
past 12 years in Afghanistan, as well as from other high-risk 
environments in which USAID has worked. As USAID navigates through the 
2014 transition period and looks to 2015 and beyond, we are committed 
to expending every effort to safeguard taxpayer funds and ensure that 
the remarkable development progress in Afghanistan is maintained and 
made durable, in order to secure our overall national security 
objectives. It is an honor to be able to share with you today a small 
glimpse of what USAID is doing in that regard. I look forward to 
answering any questions that you may have.

    Senator Kaine. Thank you, Ms. Campbell.
    With the two great panels and votes beginning at noon, we 
will do a 6-minute round of questions, one round for the first 
panel. We will leave the record open for written questions. We 
will then move to the second panel.
    For this panel, let me begin with the issue of women's 
empowerment and any potential backsliding. As recently as 
February, there were efforts by certain elements in the Afghan 
political system to weaken laws on the books protecting the 
rights of women and girls. Human Rights Watch has particularly 
warned about concerns of backsliding in this area.
    What do you think of the likely direction of this trend and 
how can the United States engage with the new government on 
this issue? You have referred to it briefly, but I am 
interested in your thoughts on the trend and what specifically 
we can do to make sure it goes in the right direction. Please, 
Ms. Campbell.
    Ms. Campbell. Thank you.
    As you noted, women have made tremendous progress. We 
believe that the educational services that we have been helping 
the Afghan Government to provide is one of the best measures 
that we can take to ensure that the progress women have made is 
respected and maintained.
    As I noted in my testimony, one of the largest programs 
USAID has ever designed for women is about to be launched this 
summer. The Promote project will build on the gains we have 
made in educating girls and will target women with secondary 
education to become the future leaders of Afghanistan. The 
support we will be providing will focus on helping this cohort 
to become leaders in the economy, leaders in government, 
leaders in civil society, providing support to civil society 
groups who can advocate on behalf of human rights and women's 
rights. So we are confident there will be a voice for women, by 
women, and by supportive men in the future.
    Senator Kaine. Mr. Blanc.
    Mr. Blanc. Senator, thank you. If I could just add some of 
our political work, in addition to our programmatic work. I 
think, first of all, it is important to note in the case that 
you just described of the potential for legal backsliding 
earlier this year, that it really was Afghan women who 
mobilized to prevent that law from being enacted and 
successfully ran a campaign that got the legislature or got the 
executive engaged and defeated the effort. And I think that is 
exactly the kind of thing that we hoped to see and are glad to 
be seeing in the politics of Afghanistan.
    The second thing that I would note is that the 
international community has been very clear, going back through 
perhaps the Lisbon Conference and then moving through a variety 
of fora, the Tokyo Conference, the Chicago NATO summit, the 
Bonn Conference, that the assistance that Afghanistan needs is 
very much contingent on continued progress in a number of 
areas, including continued progress on the rights and role of 
women. And I think it is something that Afghans broadly 
understand and I hope contributed to the successful effort 
earlier this year.
    Senator Kaine. While we are on the subject of the 
international support for the Afghan effort, why do you not 
give us an update on the current status of the Tokyo Mutual 
Accountability Framework and how you see that developing once 
the Presidential elections are through.
    Mr. Blanc. The Tokyo Mutual Accountability Framework has 
both some high-level aspirations and some very specific 
responsibilities for the Government of Afghanistan. And I think 
that as we expected in Tokyo, we are seeing better progress in 
some areas than in others. We are very pleased, for example, to 
see a more transparent budget process. We are very pleased to 
see a better process for sharing budgetary decisions with the 
provinces. And of course, we are especially pleased to see the 
implementation of all of the agreed steps in the Tokyo 
Framework in the runup to the election.
    There are other areas where there is still work to be done, 
for example, in passing a new mining law. And I think one thing 
that we have been very careful about is to remind not just the 
current administration but all of the candidates and the people 
who are likely to continue to play significant roles in 
Afghanistan in the next administration, that this is the set of 
expectations that we have agreed to--we in the international 
community and the Afghans--and we are not really expecting a 
change from that in the early days of a new administration.
    Senator Kaine. Other comments on the framework?
    [No response.]
    Senator Kaine. Let me ask one additional comment about the 
most recent elections. To what degree was the democratic demand 
that was seen in the sizeable turnout expressed in terms of a 
desire to reduce corruption in the country, and what do you see 
about anticorruption efforts going forward?
    Mr. Blanc. I will quickly start and just say that all of 
the major candidates and certainly the two candidates who now 
appear to be possibly moving forward to a second round made 
anticorruption and governance a central part of their campaign, 
and both have signed broad anticorruption pledges. So I think 
it is very clear that the Afghan people are demanding an 
improvement in governance and a reduction in corruption. And 
that is something where again, as was the case in the women's 
issue earlier this year, our role is increasingly to support 
Afghan domestic politics in doing the right thing.
    Senator Kaine. Other comments? Kathleen.
    Ms. Campbell. Yes. I would just add that the United States 
is happy to see that it is civil society--it is the Afghan 
people--who are stepping up and speaking out on these issues. 
It is one of the things that USAID is providing support for--to 
build the capacity of civil society in this area. The media, I 
think, has also had a very important role in ensuring 
transparency, increasing transparency regarding the Afghan 
Government's activities.
    Some of our work with Afghan Government institutions is 
also focused on strengthening their systems so that they are 
less subject to corruption, and increasing the transparency of 
those institutions.
    Senator Kaine. Thank you very much.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Mr. Blanc, I represent Idaho and I have a constituent that 
is being held by the Taliban, as you know. His name is Bo 
Bergdahl. And people in Idaho read with interest and indeed 
with concern the recent news reports about the fact that the 
Haqqani network was holding him. The Taliban want to release 
him, but because of the fragmented situation as far as the 
United States is concerned between the DOD, Department of 
State, et cetera, they are having difficulty doing this. This 
caused a great deal of concern.
    Having said that, I know who we are dealing with, and I 
understand that there are answers to these things. So I want to 
give you this public opportunity to put a fence around this and 
explain to my constituents in Idaho and to America how hard all 
of you work to try to get people like this released and 
particularly Mr. Bergdahl. So I would like, if you could, 
please to give us some reassurances in that regard.
    Mr. Blanc. Senator, thank you very much for the opportunity 
to respond to that story which, as you indicate, we view as 
entirely inaccurate.
    Our hearts go out to Sergeant Bergdahl's family. Our hearts 
go out to Sergeant Bergdahl. He has been gone for far too long. 
And we and our colleagues across the Government in the 
Department of Defense, in the intelligence communities, 
elsewhere are striving in the most energetic and creative ways 
we can devise to try to secure his release. Speaking for my 
office, I can say without qualification that nothing energizes 
the efforts of our office so much as Sergeant Bergdahl.
    Unfortunately, the Taliban broke off direct contact with us 
in January 2012. We would very much like to return to direct 
contact with them, and if we do, at the top of our agenda will 
be Sergeant Bergdahl.
    It is certainly not the case, as was reported, that somehow 
the Taliban and Haqqani network are seeking to release him and 
that interagency squabbles within the United States Government 
are preventing or delaying that.
    Senator Risch. Mr. Blanc, thank you very much. I continue 
to be impressed with what a high priority this is for the State 
Department, for DOD, and I appreciate how well you keep in 
touch with us and in touch with those who need to know these 
kinds of things. We appreciate your efforts and we are all 
going to work together to see if we cannot make this happen as 
soon as possible. Thank you.
    Thank you, Mr. Chairman.
    Senator Kaine. Thank you, Senator Risch.
    I am going to violate a rule and ask another question or 
two in case one of the colleagues wants to come back, and then 
we will move to the second panel.
    Talk a little bit about the relationship, the economic 
prospects between Afghanistan and Pakistan. That has been a 
very challenged relationship. And yet, they are in a regional 
economy where greater licit economic trade could be to the 
benefit of both. This pipeline project is an example of 
something that could be a tangible. If you would talk a little 
bit about the prospects there, I think that would be helpful.
    Ms. Sumar. Thank you for that question, Senator Kaine.
    So as you know, as we think about the region, one of things 
we are really struck by is the real willingness in leadership 
that we are seeing from the countries themselves to actually 
find more creative ways to engage and not to be trapped by 
their own geography, so to speak. And so we are seeing this in 
different types of markets, and one is the energy market, as 
you rightly pointed out. We have seen more movement in the last 
6 months, I would say, than we have had in 6 years or so on 
electricity transmissions 
in particular. And so projects such as CASA-1000, which is this 
electricity transmission line that would go from Kyrgyzstan and 
Tajikistan to Afghanistan and then to Pakistan has really 
galvanized I think cooperation and negotiations among these 
countries in a way that they really have not had these 
discussions and negotiations before.
    I think CASA-1000 would make a great Harvard School of 
Business study actually, not just for this particular project 
of electricity lines, but looking at how these countries are 
willing to work together for a common future.
    What really strikes me here is there is a common need here 
which is in this case energy generation and the need for more 
energy for Pakistan, for India, for the broader South Asia 
Continent. Water is literally spilling in Tajikistan, for 
instance. However, the Tajiks are not making any money off of 
the excess water they have, particularly in the summer months. 
So if there is a way to create the hydro potential, both to 
upgrade existing facilities but also to create new transmission 
lines that can bring excess, surplus hydro down from the 
Central Asian states into Afghanistan where Afghanistan 
benefits both as a recipient where it will keep 300 megawatts 
off the grid and also to capture revenue fees from the transit 
of 1,000 megawatts into Pakistan, it creates multiple 
opportunities for these countries.
    And so we have had really positive momentum. The World Bank 
brought CASA-1000 to a vote at the end of March where it 
secured a $526 million grant and loan guarantee for the 
project. Construction will begin later this year. The United 
States played a critical role in this process by both a $15 
million financial contribution to CASA-1000 but also the 
political support and really working very closely with the 
World Bank, the Islamic Development Bank, and all the four CASA 
countries to get this project up and moving. And so we are very 
proud of our initiative and work in that area.
    TUTAP is another project in the electricity line which is 
also having similar kind of results. Electricity for the first 
time is already flowing, for instance, from Uzbekistan to 
Afghanistan. In fact, most of the lights that come on in Kabul 
are thanks to the lights that are being supplied from the 
Uzbeks on those electricity lines.
    Plans are underway now to connect these grids to bring 
electricity from Turkmenistan to Afghanistan, from Uzbekistan 
down to Afghanistan, and also from Tajikistan and then 
eventually connect at a substation in Afghanistan and transit 
over into Pakistan as well.
    And so these are the types of new relationships. We know 
the traditional dynamics well here between Afghanistan and 
Pakistan, for instance. What we are also seeing now are these 
kind of conversations between their finance teams, their 
economics teams, their water and energy teams on price 
negotiations, on transmission, on electricity.
    On TAPI, TAPI we still believe has the power to be 
transformative in changing the natural gas markets that connect 
this region. It is the reason we have been a strong supporter 
for years. I think there is a lot that you would need to happen 
in order to attract the kind of international oil companies and 
the international investment to secure the pipelines, and we 
are actively working with the Turkmen, for instance, for them 
to have the conversations that they would need to secure the 
financing, to secure the rights and the access to work with an 
international oil company to move a project like that forward.
    But if these types of projects go forward, what is really 
telling for us and what really I think energizes us, frankly, 
is you have a way of really kind of changing the dynamic of 
Central and South Asia through the Af-Pak lens. And you are 
creating connections that give all of these economies in 
different ways many more options than they currently have, and 
it gives them more ways to strengthen their sovereignty and 
economic independence in the region.
    Senator Kaine. Great. Thanks very much.
    Additional questions for the first panel, Senator Risch?
    Senator Risch. Briefly. I wonder if one of you could tackle 
for me the relationship between Afghanistan and Iran and how 
much business they are doing back and forth.
    Mr. Blanc. Senator, I do not have numbers with me about 
their business. I am not sure if one of my colleagues might. If 
not, we are happy to provide that for you.
    Senator Risch. I wonder if you could provide it, but also 
if you can give us a general sense at this point.
    [The written reply by Mr. Blanc to the requested 
information follows:]

    As a result of their geographic, linguistic and cultural 
connections, Afghanistan and Iran share significant trade ties, 
particularly in the Western region of Afghanistan and in Herat. Much of 
the trade practiced today between the two countries goes back 
generations. In recent years, Afghanistan-Iran trade has increased due 
to cost increases and customs delays for cargo transiting Pakistan in 
2011, when the closure of the Ground Lines of Communication (GLOC) 
indirectly affected commercial traffic as well. Given these problems 
and the lack of other feasible transit options, many private Afghan 
traders opted to bypass the delays in Pakistan by moving goods through 
Iranian ports instead. Afghan imports transiting through and 
originating from Iran rose from $1.6 billion in 2011 to $2.7 billion in 
2012 according to data from the United Nations. The number of Afghan 
exports to Iran remains very small, estimated by the U.N. at only $12 
million in 2011 and decreasing to $8 million in 2012.
    Understanding that Afghanistan continues to have limited transit 
options for accessing international markets, we have advised the 
Government of Afghanistan to exercise extreme caution in its trade with 
Iran to ensure that Afghanistan is not used by Iran to undermine the 
international community's effort to ensure Iran lives up to its 
international obligations. Where possible, we encourage Afghanistan to 
seek alternate trading routes. We have used diplomatic engagement and 
technical assistance to support implementation of the Afghanistan-
Pakistan Transit Trade Agreement, which we hope over time will reduce 
barriers to Afghan access to Pakistani ports. We also continue to 
support Afghanistan's access via Central Asia, where U.S. investments 
in the Northern Distribution Network over the past decade have improved 
infrastructure and trade facilitation significantly.

    Mr. Blanc. Maybe I will just answer a general question.
    You know, I think that obviously there is trade between 
Afghanistan and its neighbors, including with Iran. And some of 
that is healthy and is necessary, and we encourage Iran to play 
a responsible role in Afghanistan.
    One thing that we do consistently is to remind our Afghan 
partners about the nature of our sanctions against Iran so that 
when they make decisions about things, for example, work 
through the Chabahar Port, they understand the implications 
that that has because of the very strict laws we have in place.
    Senator Risch. Ms. Sumar.
    Ms. Sumar. I would reiterate that this is one of the 
toughest neighborhoods in the world, and so if you look in this 
context, you have Iran, Russia, China, and all the other 
tensions and relationships that you already have existing 
within the broader South Central Asia space. And so economic 
relationships that are already existing there, whether it is 
with the Iranians, the Chinese, the Russians, others in the 
region, those relationships continue to exist.
    But I think in our diplomatic relationships that we have 
with these countries in terms of looking at ways to strengthen 
their economic independence, we continue to reiterate, you 
know, be careful in the decisions you are making so that you do 
not run afoul of United States sanctions on Iran, which are 
very important to us and one of our top priorities. Our policy 
on Iran is very well known in our relationships. It is a 
constant conversation that comes up in our relationships with 
these countries. And we have continued to engage India and 
others that engage on trade with Afghanistan via Iran, for 
instance, on Chabahar Port and others that their engagement 
needs to be in strict accordance with United States law and 
U.S. sanctions so that they do not run afoul of those issues.
    So we can definitely, Senator Risch, come back to you with 
the actual statistics of trade between Iran and Afghanistan. 
But we definitely do it in our regional economic engagement 
work within a broader context of the kind of policy options 
that we would like to see.
    Senator Risch. Thank you.
    Senator Kaine. I want to thank the first panel. Thank you 
very much for your testimony today. Ms. Sumar, you are going to 
be invited back now that you have survived the first witness 
experience, transitioning from committee staff to the witness 
table. Thank you all.
    And I would like to invite the second panel to come up and 
we will jump right into this testimony. As the second panel is 
coming forward, I will just introduce them, and these are 
individuals who will be no stranger.
    Gen. John Allen, U.S. Marine Corps, retired, is a 
distinguished fellow currently in the foreign policy program at 
Brookings, but as all are aware, prior to joining Brookings, 
General Allen commanded the NATO International Security 
Assistance Force and U.S. Forces in Afghanistan from July 2011 
to February 2013. He has a long track record of service to our 
country before those assignments, but those are assignments 
particularly relevant to the hearing today.
    In addition, we are fortunate to have with us Parnian 
Nazary. She lived in Afghanistan until 2004, a native, when she 
moved to the United States for her education. She is joining us 
today representing Women for Afghan Women. Ms. Nazary has 
always promoted Afghan women's rights through her involvement 
with various agencies working with Afghani women.
    And I will say I have read a lot of written testimony in my 
15 months in the Senate. Both of your sets of written testimony 
for very different reasons were particularly compelling, and I 
am glad to have you here today.
    And I would ask General Allen to begin and then Ms. Nazary 
to follow.

   STATEMENT OF GEN. JOHN ALLEN, U.S. MARINE CORPS, RETIRED, 
  DISTINGUISHED FELLOW, BROOKINGS INSTITUTION, WASHINGTON, DC

    Mr. Allen. Thank you, Chairman Kaine and Ranking Member 
Risch. It is an honor to appear before this subcommittee on 
this important subject of the future of Afghanistan in the 
post-2014 period.
    Before I offer a brief statement, please let me thank the 
members for all that you continue to do for our magnificent 
troops in Afghanistan. As this year winds down to the close of 
the mission, I believe history will record well that the United 
States Congress on behalf of the United States people 
unfailingly supported our troops and our mission through very 
difficult years, and for that, Mr. Chairman, and to all the 
members of this committee and to the U.S. Congress, I will 
always be very grateful.
    I would like to present my thoughts today on the future of 
Afghanistan in the form of a letter that I will be writing to 
the President of Afghanistan once he is inaugurated. And so it 
will take the form of correspondence, and it goes as follows.
    ``Dear Mr. President, please accept my sincere 
congratulations on your election as the President of 
Afghanistan. Your election represents one of the most historic 
moments in the modern history of your country: the peaceful 
transition from one elected government to another. Indeed, this 
act sets a precedent for a region where democracy and peaceful 
transitions are far more aspirational than realistic.
    ``I have been and remain, Your Excellency, one of the 
strongest advocates of Afghanistan. So it is in that spirit, 
sir, at your inauguration that I offer the following points for 
your consideration.
    ``First, sign the bilateral security agreement and, in so 
doing, embrace Afghanistan's desire for a long-term security 
relationship with the United States, NATO, and key partners. 
Seek to repair Afghanistan's relationship with the U.S. and the 
West. Here is your chance, Mr. President, to begin your 
Presidency in partnership and not in conflict with the nations 
who bled and spent their treasure on and for Afghanistan's 
people.
    ``Additionally, embrace your role as the Commander in Chief 
of the Afghan National Security Forces. They have demonstrated 
extraordinary feats of organization, development, and 
operational accomplishment. They are brave, principled, and 
ready to endure great hardship in following your orders and 
sacrificing for Afghanistan. And your forces need to see, and 
need to feel, your firsthand engagement and positive 
leadership.
    ``Second, protect the remarkable advances of civil society 
and, in particular, those of women. Much has been accomplished 
here, but often in spite of existing leadership, systems, and 
policies. The world is holding its collective breath in 
anticipation of what will become of the gains of women and 
minorities under your administration. Your public commitment to 
defending, furthering, and advancing women's and minorities' 
rights will be warmly welcomed by the international community, 
which is keen to help, but will also require a comprehensive 
strategy of Presidential decrees and legislative reforms to 
lock in these gains and to secure the future. As you well know, 
Mr. President, no state has ever successfully transitioned into 
a developing society without fully embracing the constructive 
role of women.
    ``Third, reach out to Pakistan. For myriad complex reasons, 
the relationship between your country and Pakistan and their 
respective peoples has deteriorated alarmingly over the course 
of this conflict. The absence of trust, compounded by 
uncertainty about the future, has left both nations to hedge 
their bets, to the good of no one and the detriment of all 
involved. Both nations share substantial common trade, 
economic, social and security interests. In that regard, I 
suggest you seek to reinvigorate the Afghan-Pakistan Transit 
Trade Agreement and support TAPI and pursue aggressively other 
cross-border and regional economic ties with Pakistan. As well, 
dealing with the alarming growth of extremists, terrorists, and 
insurgents on both sides of your common frontier should be a 
high priority and an important basis for constructive dialogue 
between your administration and that of Prime Minister Sharif 
in Islamabad. This dialogue can also serve as a platform for 
resolving the long-simmering issues over the Durand Line.
    ``Fourth, make Afghanistan business-friendly. As you build 
effective governance and reinforce the rule of law, initiate 
the necessary legal and regulatory reforms to leverage the 
natural entrepreneurial spirit of the Afghan people and to 
create a truly business-friendly environment to attract 
international businesses. The Tokyo Donors Conference in July 
of 2012 signaled a readiness of the international community to 
invest on the order of 16 billion U.S. dollars during the 
coming decade. This can be accelerated by the right reform 
package and your clear and public commitment to doing business 
within Afghanistan and externally within the region and with 
the international community.
    ``Last, but in the long term, most importantly, Mr. 
President, I urge you to undertake a sweeping, coordinated, and 
decisive counter-corruption campaign. Here time is not on your 
side. Acknowledging that the United States and the West bear 
some responsibility for the state of corruption in Afghanistan, 
the great challenge to Afghanistan's future is not the Taliban 
or Pakistani safe havens or even an incipiently hostile 
Pakistan. The existential threat to the long-term viability of 
modern Afghanistan is corruption. For too long, we focused our 
attention solely on the Taliban as the existential threat to 
Afghanistan. They are an annoyance compared to the scope and 
the magnitude of corruption with which you must contend. While 
the Afghan National Army will battle your nation's foes and in 
that context battle the Taliban, the battle for Afghanistan, 
the real fight, will be won by righteous law enforcement, a 
functioning judiciary, and an unambiguous commitment to the 
rule of law. Indeed, wresting back the institutions of 
governance from corruption must be one of your highest 
priorities. You know, Your Excellency, that corruption is the 
dry rot of democracy.
    ``In closing, Mr. President, I offer these points with the 
greatest respect. Your commitment to these five areas will be 
welcomed by the Afghan people who have endured so much, and 
your leadership in these areas will be hailed internationally. 
The future of Afghanistan is in your hands.''
    I ask that this statement be read into the record, sir, and 
I am ready for your questions.
    [The prepared statement of Mr. Allen follows:]

              Prepared Statement of Gen. John Allen, Retd.

    Chairman Kaine and Ranking Member Risch, it is an honor to appear 
before this subcommittee on this important subject of the future of 
Afghanistan in the post 2014 period. Before I offer a brief statement, 
please let me thank the members for all you continue to do for our 
magnificent troops in Afghanistan. As this year winds down to the close 
of this mission, I believe history will record that the United State 
Congress unfailingly supported our troops and their mission, and for 
that Mr. Chairman, I will always be grateful.
    I'd like to present my thoughts today on the future of Afghanistan 
in the form of a letter I will be sending to the President-elect.
                                 ______
                                 
    Dear Mr. President: Please accept my sincere congratulations on 
your election as President of Afghanistan. Your election represents one 
of the most historic moments in the modern history of your country: the 
peaceful transition from one elected government to another. Indeed, 
this act sets a precedent for a region where democracy and peaceful 
transitions are more often than not aspirational and not realistic.
    I have been and remain, Your Excellency, one of the strongest 
advocates for Afghanistan. I have seen up close the nobility of your 
people, and I have a comprehensive appreciation for the potential of 
your country. You will have many competing priorities as you assume 
office, but please know the American people and the international 
community wish you every success, and wish for your people every 
opportunity to move beyond more than three decades of war to a future 
they and we have sacrificed so much to achieve.
    It is in this spirit, President ---------, at your inauguration, I 
offer the following points for your consideration:
    First, sign the Bilateral Security Agreement (BSA), and in doing 
so, embrace Afghanistan's desire for a long-term security relationship 
with the U.S., NATO, and other key partners. Seek to repair 
Afghanistan's relationship with the U.S. and the West. Here is your 
chance Mr. President to begin your Presidency in partnership--and not 
in conflict--with the nations who bled and spent their treasure on and 
for Afghanistan's people. Additionally, embrace your role as Commander 
in Chief of the Afghan National Security Forces (ANSF). They have 
demonstrated extraordinary feats of organization, development, and 
operational accomplishment. They are brave, principled, and ready to 
endure great hardship in following your orders and sacrificing for 
Afghanistan, and your forces need to see and feel firsthand your 
engaged, positive leadership.
    Second, protect the remarkable advances of civil society, and in 
particular those of women. Much has been accomplished here, but often 
in spite of existing leadership, systems, and policies. The world is 
holding its collective breath in anticipation of what will become of 
the gains of women and minorities under your administration. Your 
public commitment to defending, furthering, and advancing women's and 
minorities' rights will be warmly welcomed by the international 
community, keen to be helpful, but will also require a comprehensive 
strategy of Presidential decrees and legislative reform to lock-in 
these gains and secure the future. As you well know, Mr. President, no 
state has ever successfully transitioned to a developing society 
without fully embracing the constructive role of women. Your many 
friends in the international community are ready to assist you in 
further empowering the role of women, and more broadly the role of 
civil society, in building legitimate and enduring institutions of 
governance.
    Third, reach out to Pakistan. For a myriad of complex reasons, the 
relationship between your country and Pakistan, and their respective 
peoples, has deteriorated alarmingly over the course of this conflict. 
The absence of trust, compounded by uncertainty about the future, has 
left both nations to hedge their bets--to the good of no one and the 
detriment of all involved. Both nations share substantial common trade, 
economic, social and security interests. In that regard, I suggest you 
seek to invigorate the Afghanistan Pakistan Transit Trade Agreement and 
pursue aggressively other cross border and regional economic ties with 
Pakistan. As well, dealing with the alarming growth of extremists, 
terrorists, and insurgents on both sides of your common frontier should 
be a high priority and an important basis for constructive dialogue 
between your administration and that of PM Sharif in Islamabad. This 
dialogue could also serve as the platform for resolving long simmering 
issues over the Durand Line. Mr. President, the bottom line is that the 
Afghan and Pakistani people are in the same lifeboat, adrift in a sea 
of political turmoil, economic challenge, and extremist threat. Your 
collective approaches to these daunting problems will brighten the 
possibilities for both countries. Reaching out to Pakistan at the 
beginning of your administration is both courageous and timely, and 
will be strongly supported by the international community, including 
India.
    Fourth, make Afghanistan business friendly. As you build effective 
governance, and reinforce the rule of law, initiate the necessary legal 
and regulatory reforms to leverage the natural entrepreneurial spirit 
of the Afghan people and to create a truly business friendly 
environment to attract international businesses. The Tokyo Donors 
Conference in July 2012 signaled a readiness of the international 
community to invest on the order of $16B USD during the coming decade. 
This can be accelerated with the right reform package and your clear 
and public commitment to doing business within Afghanistan, and 
externally within the region, and with the international community.
    Last, but in the long run most importantly, Mr. President, I urge 
you to undertake a sweeping, coordinated, and decisive 
countercorruption campaign. Here time is not on your side. 
Acknowledging that the U.S. and West bear some of the responsibility 
for the state of corruption in Afghanistan, the great challenge to 
Afghanistan's future isn't the Taliban, or the Pakistani safe havens, 
or even an incipiently hostile Pakistan. The existential threat to the 
long-term viability of modern Afghanistan is corruption. Indeed, across 
your great country, the ideological insurgency, the criminal patronage 
networks, and the drug enterprise have formed an unholy alliance, which 
relies for its success on the criminal capture of your government 
functions at all levels. For too long, we've focused our attention on 
the Taliban as the existential threat to Afghanistan.
    They are an annoyance compared to the scope and magnitude of 
corruption with which you must contend. While the Afghan National Army 
will battle your nation's foes, the battle for Afghanistan will be won 
by righteous law enforcement, a functioning judiciary, and an 
unambiguous commitment to the rule of law. Indeed, wresting back the 
institutions of governance from corruption must be one of your highest 
priorities, Your Excellency, for as you know, corruption is dry rot of 
democracy. Your fledgling institutions of government and governance and 
any real hope of economic development will be stillborn if the drug 
lords and CPN leadership remain in control.
    In closing, Mr. President, I offer these points with the greatest 
respect. Your commitment to these five areas will be welcomed by the 
Afghan people who've endured so much, and your leadership in these 
areas will be hailed internationally. The future of Afghanistan is in 
your hands.
    With abiding respect now and always, I remain,

         John R. Allen, General, U.S. Marine Corps 
                                         (Retired),
              Former Commander, NATO International Security
                     Assistance Force, and U.S. Forces Afghanistan.

    Senator Kaine. Without objection. Thank you, General.
    Ms. Nazary.

STATEMENT OF PARNIAN NAZARY, ADVOCACY MANAGER, WOMEN FOR AFGHAN 
                     WOMEN, WASHINGTON, DC

    Ms. Nazary. Chairman Kaine, Ranking Member Risch, and other 
members of the committee, thank you for giving me the 
opportunity to speak today about the progress, challenges, and 
hopes of my Afghan sisters in this critical year of transition 
in Afghanistan.
    Let me also thank you for your longtime support of the 
Afghan people and especially Afghan women.
    The suffering of Afghan women, especially in the last three 
decades, is widely known and extensively documented by rights 
organizations. Some of us Afghan women became victims of war 
and insurgency, but let us remember and celebrate that many of 
us are survivors. Born and raised in war, my personal life is 
intertwined with the political struggles of my country, making 
my political and policy views inseparable from my story.
    Many of you already know that under the Taliban regime, 
women were banned from education, employment, access to health 
care by virtue of being banned from visiting a male doctor, 
political participation, and many other basic rights. The 
Taliban had even banned women from appearing by the glass 
windows inside their own homes. In other words, Afghan women 
were not free inside their own homes, let alone in public.
    I was barely a teenager when the Taliban took over Kabul in 
1996. One of the first things they did was to close all schools 
for girls. During the Taliban regime, I could not enjoy simple 
things in life as a girl. I was denied basic things just 
because of my gender.
    Yet, despite the Taliban's ban on girls' education, many 
brave women started secret schools in their homes. I enrolled 
in secret schools three times but each one was discovered and 
closed down by the Taliban. Every day I walked to the secret 
school with fear, as the Taliban had security checkpoints in 
almost every block. I hid my books in an unmarked bag and 
changed my route to school constantly.
    In class were about 30 young girls. I was the youngest and 
did not have to wear a chaderi, a long cloth covering women 
from head to toe and imposed on all women over the age of 13 by 
the Taliban. However, once my classmates were inside the class, 
they would cast the chaderi aside.
    We were enjoying our secret classes until one day a girl 
enrolled in my school burst into the room. The Taliban are 
coming, she screamed. Everyone rushed to grab their chaderi and 
wrapped up our books and whatever we could get our hands on. 
Some of us threw our books in the closet. Everyone was 
trembling as the Taliban blasted through the door and rushed in 
carrying whips and rifles. ``What are you doing here,'' one 
snarled. ``Learning to sew,'' one of our teachers said, her 
voice shaking. Pretending to sew was a backup plan in case the 
Taliban raided our secret school. As the Taliban saw an 
unstitched cloth in our hands, they hit the teacher with a 
whip.
    Another Taliban gang man opened the closet and saw our 
books. He called shameless and dirty and tore our books into 
pieces.
    The Taliban ordered all of us out of the building. Some 
passers-by pleaded with them to let us go. The Taliban finally 
let us go but took our teachers. I remember running home in 
tears, fear, and shock.
    At age 13, I was stopped on the street and yelled that I 
should start wearing a chaderi outside now I was old enough. 
One day I was stepping out of home wearing a chaderi when I 
suddenly felt the burn of a lash on my back. I began to run. 
But the Talib religious police ran after me and hit me again 
and again. I still do not know what my crime was, but I only 
remember hearing ``palan tu kujas,'' the man beating me said in 
a heavy accent. Where is your skirt?
    After these experiences, I refused to live under their 
rules, but at that age and in those circumstances, the best I 
could do was to wage a silent resistance. By myself, I started 
to study harder than ever because I knew I could only fight 
such an ideology through the power of education. My home became 
my school and I became my own teacher. The Taliban wanted to 
create a prison for me and with the help of my family, I 
created my own school.
    My story is not unique. This was the situation for millions 
of Afghan women under Taliban rule.
    In sum, the suffering was unspeakable. The pain was 
unbearable and the operation was unimaginable. And this is 
where Afghan women more forcefully started their fight for 
equal rights after the Taliban regime finally collapsed in 
2001. And let me tell you, over the last 13 years the gains 
Afghan women have made are beyond anyone's wildest 
expectations. Afghan women have come a long way since the dark 
days of the Taliban regime, and all of this happened in just a 
little over a decade.
    Yet, despite the immense progress, all the gains made so 
far remain fragile. With the U.S.-led coalition forces 
scheduled to leave by the end of this year, many Afghan women 
feel uncertain if their gains will be sustained without 
continued support from the international community. During my 
trip to Afghanistan last month, the one sentiment among all 
Afghan women was a shared fear of being abandoned by the 
international community while the Taliban insurgency continued 
to threaten women's hard-won gains.
    The Taliban have not changed. They have become more 
complex. But they have not changed their views on education of 
women. Their targeted attacks on education, including schools, 
teachers, and students continue; prominent women's rights 
activists, including media, including singers, journalists, and 
musicians are well documented and continue.
    Despite increasing attacks on Afghan women across the 
country, it does not stop them from fighting for their rights. 
I saw a picture of a woman voting in 2014 elections with her 
ring finger because her first finger was chopped off by the 
Taliban in 2009 elections. That is the fight of Afghan women 
and their bravery now. This shows the bravery of Afghan women 
who put themselves on the front lines and fight for equality, 
justice, freedom, and democracy.
    While I was inspired by the progress made, I am most 
concerned with the future. Before discussing the specifics, I 
would like to make one point. As we all look toward the future, 
I would like to ask you to remember that a country cannot be 
built in 12 years or even 20. Afghanistan's development as a 
more stable, rights-respecting partner for the United States in 
an incredibly unstable region cannot be measured in years or 
election cycles. This is a process that will take decades and 
generations. My generation is the first of what will hopefully 
be many that has been educated and brought up in a largely 
democratic society. My generation has to be able to move 
forward toward the democratic foundations to firmly take root 
in the country. And for that to happen, the torch has to be 
passed to them, something which is taking place, but the 
sustained involvement and support of the international 
community is critical for it to be completed.
    Looking forward, we understand U.S. civilian financial 
commitments will be significantly less than over the past 13 
years. However, we need to know your support will not waver 
even if funding levels drop.
    The bilateral security agreement, which has the support of 
almost all Afghans, will be signed by our new President I hope. 
Some United States troops need to remain and funding must 
continue in order to allow my generation to complete the hard 
work of reclaiming Afghanistan from a generation of war and 
fundamentalism to a generation of hope and democracy.
    Having considered this, I share with you a set of 
recommendations which I hope will help better shape support for 
the Afghan women beyond 2014. I have submitted four 
recommendations in my written testimony and am reading a 
snapshot of it here.
    Firstly, for peace and justice, I have looked at 
extensively into peace talks with the Taliban and have reached 
a conclusion that reconciliation with the Taliban is fruitless. 
I am more than 100 percent convinced that any peace deal with 
the Taliban would most definitely compromise women's rights and 
their gains will be eroded away.
    Two, ensure that women's rights remain central to the 
leadership between the United States and Afghanistan. In every 
conversation a United States official has with an Afghan 
official, he or she should mention the importance of women's 
rights.
    Three, continue to invest in education and especially in 
higher education. Scholarships to study abroad for Afghan men 
and women and the American University of Afghanistan in Kabul 
are excellent examples of such an investment.
    Four, continue to provide long-term support to Afghan civil 
society organizations, especially those involved in promoting 
women's rights.
    Five, support the Afghan National Security Forces beyond 
2014 in order for them to fight the Taliban insurgency and 
provide support for the Afghan men and women fighting for their 
rights.
    Six, continued support for the Afghan media and freedom of 
speech.
    Seven, support women's shelters, educational programs to 
highlight domestic abuse, and other social programs which 
tackle the multitude of issues facing Afghan women.
    Thank you all for your support of Afghanistan. We would not 
be in the midst of a successful election or be here talking 
about progress made without you and the American people's 
immense sacrifice on our behalf. We are also grateful to our 
American sisters who have supported us and have stayed with us 
through the bad and the worst times. It is because of your 
support and sacrifices that we, the women of Afghanistan, have 
been empowered to fight for gains despite all odds against us. 
We are determined to move forward and strengthen the 
foundations for a better tomorrow and hope our friend and ally, 
the United States, will walk with us.
    Thank you.
    [The prepared statement of Ms. Nazary follows:]

                  Prepared Statement of Parnian Nazary

    Chairman Kaine, Ranking Member Risch, and other members of the 
committee, thank you for giving me the opportunity to speak today about 
the progress, challenges, and hopes of my sisters in this critical year 
of transition in Afghanistan.
    Let me also thank you for your long time support of the Afghan 
people and especially Afghan women. Without your support, the support 
of your colleagues and support from the people of the United States, 
Afghans would likely still be living under Taliban rule, deprived of 
everything, including basic human rights.
    The suffering of Afghan women, especially in the last three 
decades, is widely known and extensively documented. Some Afghan women 
became victims of war and insurgency but we also must remember and 
celebrate that many of us are survivors. Born and raised in war, my 
earliest childhood memories from the 1990s include collecting golden 
and bronze bullet shells from my neighborhood in Kabul and building 
castles out of them. My personal life is intertwined with the political 
struggles of my country, making my political and policy views 
inseparable from my story.
    I was barely a teenager when the Taliban took over Kabul in 1996. 
One of the first things they did was to close all schools for girls, 
leaving me and millions of other Afghan girls locked up in our own 
homes with no hope of receiving an education.
    Even though things were not easy before the Taliban took over my 
city, I was still able to go to school and see my friends. But after 
the Taliban I was denied basic rights and opportunities because of my 
gender.
    Yet despite the Taliban's ban on girls' education, many brave women 
started secret schools in their own homes. I was overjoyed when I found 
out about one such secret school in our neighborhood, Shar-e-Now. Even 
though my parents knew I could be harmed by the Taliban for attending 
school they agreed to enroll me.
    I walked to school every day with fear as the Taliban had security 
checkpoints in almost every block. I hid my books in an unmarked bag 
and changed my route to school constantly.
    Once inside the class, I was happy to see another 28 or so girls. I 
was not old enough to wear a chaderi, a long cloth covering women from 
head to toe, but the older girls did. They'd throw their chaderis to 
the side as soon as they'd stepped into the class.
    We were enjoying our secret classes until one day a little girl 
studying with us burst into the room. ``The Taliban are coming,'' she 
screamed.
    Everyone rushed to grab their chaderi. Some of us wrapped up our 
books in whatever we could get our hands on. Some of us threw our books 
in the closet, hiding them under piles of clothes. Everyone was 
trembling as the Taliban blasted through the door and rushed in 
carrying whips, some of them with rifles hanging from their shoulders. 
``What are you doing here?'' one of them asked. ``Learning to sew,'' 
one of our teachers said, her voice shaking. The Taliban soldiers 
looked around and saw twenty or so girls with needles, threads, and 
cloth in their hands.
    Pretending to sew was a backup plan in case the Taliban raided our 
secret school. One of the Taliban soldiers wanted to know why we wanted 
to learn to sew. Our teacher replied, ``Because you do not let us go to 
a tailor shop and we want to learn to at least sew our own clothes.'' 
The Taliban gunman asked my classmates to show their work. All we had 
was unstitched cloth. He then hit our teacher with a whip.
    Another Taliban gunman opened the closet and saw our books. He 
called us ``shameless and dirty'' and tore some of our books. I was in 
tears because my English vocabulary notebook was there too. I had spent 
so much time putting all of it together. My notebook also contained my 
drawings of girls studying by candle, something which perhaps made the 
Taliban gunman even more upset.
    The Taliban ordered all of us out of the building. Some residents 
watching us pleaded with them to let us go, citing the Taliban's own 
edicts to be in presence of women without a moharam, an immediate blood 
relative. The Taliban finally let us go but took our teachers. I 
remember running home in tears, fear, and shock.
    Months later, I learned about another secret school teaching 
English. I enrolled, but within a week or so I found a note behind the 
door which said the Taliban had closed down the school.
    When I was old enough and had to wear the chaderi outside, I once 
stepped out in my neighbourhood wearing a chaderi, and suddenly felt 
the burn of a lash on my back. I began to run--the man hit me with 
second and a third lash. I still don't know why I had to be beaten on 
the street at age 13. I only remember hearing, ``Palan tu kujas?''--
``where is your skirt?''
    After these experiences I refused to live under their rules, but at 
that age and in those circumstances, the best I could do was to wage a 
silent resistance. By myself, I started studying harder than ever 
because I knew I could only fight such an ideology through the power of 
education. My home became my school and I became my own teacher. Of 
course, I needed books, which were forbidden to girls. I asked my male 
relatives for books, including some in English. I also wanted recorded 
materials, CDs, DVDs, tapes. Since the Taliban did not allow these, I 
had to ask my families and friends traveling outside the country to 
bring me English movies or recorded books secretly. A few of them 
agreed to take the risk. My uncle brought me the movie ``Titanic.'' It 
was the only English movie I had and so I watched it over and over, 
learning every single word. I even cut my hair to look like not Kate 
Winslette but Leonardo Dicaprio, the male star of the movie. At that 
age it seemed like a good idea, especially since I wanted to speak 
English just like he did.
    After working on my English for 3 years, I started teaching it to 
seven young girls in our neighborhood. I practiced Urdu, Pashtu, and 
Dari by reading novels, poetry, and any book available. I memorized 
Suras of the Quran in Arabic and verses of Hafez poetry. I also became 
interested in arts and started painting, cooking, and knitting. The 
Taliban wanted to create a prison for me. Instead, I created my own 
school.
    My story is not unique. Unspeakable suffering, unbearable pain, and 
unimaginable oppression were the norm for millions of Afghan women 
under the Taliban.
    And this is where we started our fight for equal rights after the 
Taliban regime finally collapsed. Since then our accomplishments have 
been monumental, though we also know there is far to go.
    In terms of education, there are millions of Afghan girls enrolled 
in primary, secondary, and high schools. Hundreds of thousands of girls 
have graduated from colleges and universities.
    In terms of media, under the Taliban regime everything was 
forbidden except for one Taliban radio station, the content of which 
included announcing the new limits imposed on civilians by the 
Taliban's Department of Vice and Virtue, the religious police. For 
instance, they would announce the number of hands chopped, some of the 
hands were hanged in trees for public display, or forbidding white 
shoes since it would be disrespect to the Taliban's white holy flag. 
For entertainment, the radio program included reciting tarana, men 
singing Taliban poetry without music. The sound of the Taliban's chants 
was so mournful. Like other girls, I'd turn off the radio once informed 
of the new rules I had to obey in order to avoid being beaten on the 
street the next day. It's unfortunate that some of that dreadful 
Taliban poetry can now be found in a book published by the Taliban's 
former Pakistan Ambassador Mullah Abdul Salaam Zaef's book the ``Poetry 
of Taliban.''
    But things have changed now. There are more than 70 TV network and 
hundreds of radio stations in Afghanistan. During my trip to Kabul in 
2012, a young woman was singing and dancing on stage at an Afghan TV 
station for Eid celebrations. I thought this program, with the 
modernity and liveliness of it, was being produced outside of 
Afghanistan. But I was wrong; my family said this was being broadcast 
from a live concert in Kabul.
    In terms of technology, the only tech equipment available to Afghan 
civilians were old fashioned analogue phones that were always monitored 
by the Taliban. We had no way of communicating with our fellow Afghans 
and no means of communicating to the outside world. The country had 
become a giant prison inclusive of public punishment and humiliation.
    Today, almost 90 percent of Afghans have access to cellphone and 
over 6 million Afghans have access to the Internet, which was also 
banned under the Taliban regime. (CITE)
    Access to health care has dramatically improved for Afghan women 
since 2001. Under the Taliban regime, child mortality rate in 
Afghanistan was the highest in the world. For example, one in every 
four children died before the age of 5. Today, it is 1 in 10, a 
dramatic reduction (NPR). Back in 2001, life expectancy was estimated 
by the United Nations to be around 45 for Afghans. Today, it has 
increased to 60 years, an astonishing improvement in just a decade. For 
comparison, it took four decades to achieve the same level of 
improvement in life expectancy in the United States from early 1900s to 
the onset of World War II (USAID).
    In terms of employment, tens of thousands women work as government 
employees, in the private sector and as teachers, journalists, doctors, 
engineers, college professors, business owners, security officials and 
in many other public and private spheres.
    Prior to 2001, political participation for women in Afghanistan was 
nonexistent. But today, women make up 28 percent of Afghanistan's 
Parliament, higher than the U.S. Congress where it's at 18 percent 
(World Bank). Afghan women have served as governors, district 
governors, and many other high profile positions since 2001.
    Perhaps, the most striking indicator of increasing political 
participation for Afghan women came on April 5 of this year when around 
7 million, or 60 percent of eligible voters, went to the polls to cast 
their ballots for a new elected leader. According to Afghan election 
officials, women made up 36 percent of voters. In the former Taliban 
stronghold of Kandahar province, women made up 10 percent of candidates 
running for provincial council seats. And during election campaigning, 
the presence of women in election rallies was something international 
media outlets could not ignore. The New York Times wrote: ``There is 
finally the sense here, after years of international aid and effort 
geared toward improving Afghan women's lives that women have become a 
significant part of Afghan political life, if not powerful.''
    Aside from the elections, since 2001, Afghan women have taken the 
lead in organizing themselves as part of the growing Afghan civil 
society and fighting for their rights, at times successfully 
overturning laws which restricted women's rights. For example, Afghan 
women rights groups successfully fought the Afghan Government when it 
wanted to close shelters for battered women under pressure from Islamic 
clerics in 2011 (NPR). Another example was of Afghan women stopping the 
Afghan Government from including a new criminal penal code which barred 
family member's testimony in cases of domestic violence, effectively 
making it impossible to convict those accused of violence against 
women. My organization, Women for Afghan Women, took the lead on this 
and we lobbied the Afghan Government hard until President Karzai agreed 
not to sign the new bill into law, eventually sending it back to 
Parliament for further review.
    In just over a decade, Afghan women have come a long way since the 
dark days of the Taliban regime. Yet despite the immense progress, the 
gains made so far remain extremely fragile. With U.S. led coalition 
forces scheduled to leave by the end of this year, the security 
situation in Afghanistan facing related uncertainty, and existing 
questions concerning future U.S. funding, many Afghan women question if 
their gains can be sustained.
    I was in Afghanistan in February-March of this year and the one 
common sentiment among all Afghan women is their shared fear of being 
abandoned by the international community while the Taliban and 
insurgency continue to threaten our hard-won gains.
    The Taliban continue to attack education. The U.N. reported more 
than 1,000 attacks on education in 2009-2012, including schools being 
set on fire, suicide bombings and remotely detonated bombs, killings of 
staff, threats to staff and abductions (Global Collation to Protect 
Education from Attack).
    The Taliban have stepped up their attacks on prominent women in the 
Afghan Government and also in local communities. For example, Sitara 
Achakzai, a prominent Afghan women's rights activist was shot dead by 
the Taliban after leaving a provincial council meeting in Kandahar. 
Last year a Taliban attack targeted Islam Bibi, a top female police 
officer in Helmand province. Two other female police officers were 
killed within 6 months in 2013 in Laghman province in eastern 
Afghanistan. ``Female police officers seem to be a favorite target of 
[Taliban] insurgents,'' (The Guardian).
    Taliban's opposition to media and women's participation in public 
life is no less severe than it was a decade ago. For example, in 2012 
the Taliban beheaded 17 people, including two women, for attending a 
mixed-gender party where there was music and dancing (ABC News).
    Despite increasing targeted attacks on Afghan women and girls 
across the country, it has not stopped them from joining security 
forces or serving as public officials. While women are in the front 
lines of fighting for their rights, their success also depend on the 
continued support of the international community and the Afghan 
Government.
    While I am inspired by the progress made, I am most concerned with 
the future. Before discussing specifics, I would like to make one 
point.
    Since moving to the U.S. and having the opportunity to learn about 
the international community's interventions in countries such as 
Afghanistan, I am often struck by the short point of view policymakers 
are forced to adopt.
    As we all look toward the future, I would like to ask you to 
remember that a country cannot be built in 13 years or even 20. 
Afghanistan's development as a more stable, rights respecting partner 
for the U.S. in an incredibly unstable region cannot be measured in 
years or election cycles. This is a process that will take decades and 
generations.
    My generation is the first that has been educated and brought up in 
largely democratic society. Young Afghans, male and female, are better 
educated and more connected to the world than any generation before us. 
This was evident in the fact that 70 percent of the candidates for 
provincial council seats were youth (TOLO TV). Afghan media, which have 
witnessed an explosive growth over the last 13 years, are mostly run by 
youth. Mine is a generation full of hope but we also face incredible 
uncertainty as the international community prepares to withdraw from 
Afghanistan.
    For my generation to be the force that allows democratic 
foundations to permanently take root in the country while eventually 
coming to power, progress and stability must be maintained as the torch 
is passed. This is now taking place but the sustained involvement and 
support of the international community is critical for the process to 
be completed.
    Looking forward, we understand the U.S.'s civilian financial 
commitments will be significantly less than over the past 13 years. 
However, we need to know your support will not waver, even if funding 
levels drop. The Bilateral Security Agreement, which has the support of 
almost all Afghans will be signed by our new President, some U.S. 
troops need to remain and funding must continue in order to allow my 
generation to complete the hard work of reclaiming Afghanistan from a 
generation of war and fundamentalism to a generation of hope and 
democracy.
    Having considered this, I share with you a set of recommendations 
which I hope will help better shape support for the Afghan women beyond 
2014.
    (1). The Taliban, their supporters, and the like-minded groups 
across the region continue to pose a threat to women's social, legal, 
economic, political and basic rights. Based on the experiences of 
Afghan women activists, the Taliban have refused to show any changes 
toward the treatment of women since their fall from power in 2001. In 
case of any peace talks with the Taliban, all parties involved must be 
extremely cautious of the fact that a peace deal with the Taliban would 
compromise women's rights and erode their gains.
    (2). It is vital that women's rights remain central to the 
relationship between the U.S. and Afghanistan: To preserve the gains of 
Afghan women, the U.S. must continue pushing Afghan politicians and 
diplomats to do the right thing. As a funder, ally and partner, the 
U.S.'s role in Afghanistan hopefully will not soon disappear; meaning 
every conversation a U.S. official has with an Afghan official should 
mention the importance of women's rights.
    (3). While millions of Afghan girls have been enrolled in primary 
schools since 2001 (USAID), it's important to continue investing in 
education and to further invest in higher education for women through 
scholarships, technical programs and other educational opportunities 
beyond 2014. Afghanistan's next generations will depend on continuation 
of such support.
    (4). Continued support for Afghan civil society organizations, 
especially those involved in promoting women's rights: Through 
strategic investments and mentorship many women leaders have been 
brought up in Afghanistan. Continuing to support such agents of change 
and progress will encourage the continued transformation of Afghan 
society.
    (5). Supporting Afghan National Security Forces beyond 2014: I 
believe one cannot support women's rights, human rights, or development 
in Afghanistan without also supporting a strong ANSF because security 
is the foundation from which all Afghan progress can grow and be 
sustained. We at Women for Afghan Women believe it's vital some U.S. 
led international troops stay in Afghanistan, supporting and training 
our military while also symbolically assuring the Afghan people they 
won't again be abandoned by the international community. This also 
means continuing to fund the ANSF. I know this is not cheap ($4 Billion 
annually +/-), but it is necessary.
    (6). Continued support for the Afghan media and freedom of speech 
in Afghanistan. The explosive growth of Afghan media and the rapid rise 
of freedom of press have been two key and major gains of the last 13 
years. Afghan media have also played a critical role in enabling 
democratic principles to take root in Afghanistan.
    (7). Supporting women's shelters, educational programs to highlight 
domestic abuse, and other social programs which tackle the multitude of 
issues facing Afghan women.
    Thank you all for your support of Afghanistan. We would not be in 
the midst of a successful election or be here talking about progress 
made without you and the American people's immense sacrifice on our 
behalf. We are also grateful to our American sisters who have supported 
us and stayed with us through the bad and worst times. It's because of 
your support and sacrifices that we, the women of Afghanistan, have 
been empowered to fight for gains despite all odds against us. We are 
determined to move forward and strengthen the foundations for a better 
tomorrow and hope our friend and ally the United States will walk with 
us.

    Senator Kaine. Thank you very much, Ms. Nazary.
    Six-minute rounds and we will go until we need to vote or 
until witnesses have other commitments. I will begin.
    General Allen, we hear different assessments of the current 
status and strength of the Afghan National Security Forces, 
depending on whether we are in intel meetings, foreign 
relations meetings, armed services meetings, depending on 
whether we are talking to NGOs that are active in Afghanistan. 
Your letter that you intend to send to the President delved 
into that a bit, but I would like your candid assessment of 
both strengths and continuing challenges with the ANSF in your 
view.
    Mr. Allen. Thank you for that question, Senator.
    I think the case is clear that in almost any developing 
security force, the more technical dimensions of that force are 
always going to be a challenge.
    As well, there will be the challenge associated with the 
development of leadership. The substantial challenges which I 
faced as the commander and I believe still will be a challenge 
for some sometime in the future will be ensuring that the 
Afghan leadership are well prepared and developed, they are 
continually improved in their capabilities by the long-term 
presence of our forces on the ground in an advisory capacity, 
that the institutions of the schools and the training centers 
are well equipped and poised to continue the upward development 
of the Afghan leadership because without credible Afghan 
leadership at all levels, from the general officers through the 
mid-grade down to the youngest of the troop commanders, the 
Afghan National Security Forces will hit a glass ceiling very 
early. So the leadership development is a really important 
dimension of what we are doing.
    And more work simply needs to be done. We typically found 
that the officer corps had deep roots in one of three eras: the 
Soviet era, the mujahideen era, and then the modern era, the 
era where we would see young Afghan officers, men and women who 
look like our young officers, who are professionally oriented 
in the same manner. And they are the hope of the future. But as 
you know, it takes time obviously for them to ascend through 
the ranks.
    In the meantime, doing as much as we can in an advisory 
capacity, we have to work with the Soviet era officers, those 
officers who have been developed over a period of time who have 
fewer skills and less education. The mujahideen jihadi leaders 
are an example of that. So the officers are an area which 
deserves our continued attention and for as long as possible 
our long-term touch of that aspect of the Afghan society.
    And then the technical dimensions. It is one thing to 
conduct infantry operations. It is another thing to support 
infantry operations. So everything from the logistics support, 
the combat service support, the air movement locally by 
helicopter movement or by fixed wing transport, all of these 
require technical abilities. And as those capabilities are more 
profoundly placed into the hands of the Afghans over time, that 
kind of training regimen is going to be important to ensure 
that they have the ability to exercise those capabilities.
    When I was the commander, at the beginning of my tour in 
July 2009--excuse me--July 2011, we saw very few large-scale 
operations being accomplished in Afghanistan because of the 
inability of the staffs to plan them and execute them and the 
inability of the organization to support them. As I was 
departing--and I know as of last year--we were routinely seeing 
corps level operations occurring across Afghanistan where 
numbers of regiments or brigades would be in the field being 
supported routinely by the logistics of that organization.
    Now, that is a huge improvement from where we were, but 
that improvement has to continue. There has to be a long-term 
touch of those forces to continue that upward spiral. An 
advisory presence--I may well get the question in any case--I 
think is essential to the long-term capacity of the Afghan 
National Security Forces to create the security platform on 
which we hope to see credible governance and real economic 
opportunity occur. That will occur with the right kind of 
advisory presence.
    And it is not just about the numbers. It is about the 
presence. I have been involved in training of foreign forces 
for many years and I have been an advisor. Just our presence in 
their ranks provided the connectivity of the moral support of 
the American people and, more broadly, the international 
community. It means that the lives of these Afghan troops 
matter because we are with them and we are in their ranks. So 
advisory presence is not just about imbuing them with the 
technical skills or the tactical skills. It is about being 
simply with them.
    And so much work remains to be done. We have got to keep 
our hands on the officer development program because the Afghan 
National Security Forces will never better than their officers. 
But there is much technical work remaining to be done. As we 
continue to flow technically oriented equipment into the hands 
of the Afghans, we have got work to be done there.
    Senator Kaine. Thank you.
    One question for Ms. Nazary, then to Senator McCain.
    Ms. Nazary, your recent visit to Afghanistan coincided with 
the period of the first round of the Presidential elections. 
Tell me what the Afghan population desire is with respect to 
women's empowerment issues you describe. Was it a key feature 
of the campaigns and is the popular support strong for 
continuing on the path of progress and battling against 
backsliding if there are those who want to reverse course?
    Ms. Nazary. In all of the public debates, all the 
candidates spoke about their support for Afghan women's rights, 
and even up to the very last debate, Dr. Ghani emphasized the 
support for Afghan women's rights. So that has been seen very 
widely, and I think during the elections, the people were very 
enthusiastic in Afghanistan. In their rallies, there were more 
people coming and everyone watched the debates. It was the 
first Presidential debates we had so openly. So it was a great 
joy to be there and see that.
    Senator Kaine. Thank you for that.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses.
    General Allen, one of the great pleasures of my life, as 
well as honor, is to be associated with people like you who are 
such outstanding leaders, and your work in Afghanistan, in my 
view, and before that in Iraq, has been incredibly honorable. 
And I thank you for your continued service to the country, and 
I thank you, Ms. Nazary, also.
    Obviously, the reason why I am very interested in hearing 
your views is we seem to be seeing, in my view, a replay of 
what happened in Iraq when we ended up without troops there.
    There was an April 21 piece that says United States force 
in Afghanistan may be cut to less than 10,000 troops. I 
remember there were some leaders that said that the minimum 
should be 20,000, and then it seemed to be the coalescing 
around our military and Ambassador and others, 10,000 plus 
3,000 or 4,000 additional NATO troops. Is that pretty much the 
way you have seen this evolve?
    Mr. Allen. Yes, sir. Sir, as you recall, my recommendation 
on the U.S. side was 13,600 U.S. and about 6,000 non-U.S. NATO 
and partner nations.
    Senator McCain. Right. And now we are in a situation where 
it seems to be--as General Dempsey once testified before the 
Senate Armed Services Committee about the numbers in Iraq, it 
cascaded down. It seems to be cascading down.
    Here again, according to this article, the decision to 
consider a small force, possibly less than 5,000 United States 
troops reflects a belief among White House officials that 
Afghan security forces have evolved into a robust enough force 
to contain a still potent Taliban-led insurgency. Do you share 
that view?
    Mr. Allen. I do not, Senator. Look, the Taliban are going 
to be a potent and resilient insurgency for a long time. The 
question is whether they are an existential insurgency.
    From my perspective, an Afghan National Security Force that 
is well advised and well supported, which gives us the time to 
lock in these leadership traits and technical capabilities and 
battlefield skills, that will ultimately put the end to the 
insurgency in Afghanistan. They have not had the time. The 
Afghan National Security Forces have not had the time to 
embrace a culture of leadership, to embrace the technical 
dimension of modern warfare, or to, in fact, embrace the 
ability to fight in large formations on the battlefield. That 
will come over time. Our presence, a credible presence, with 
those forces is what will lock in that success and lock in that 
security platform.
    Senator McCain. And that credible force is what you just 
stated.
    Mr. Allen. That was my recommendation.
    Senator McCain. Then it goes on to say during a March visit 
to Washington, General Dunford told lawmakers that without 
foreign soldiers supporting them, Afghan forces would begin to 
deteriorate, ``fairly quickly in 2015.'' It goes on. ``The 
Afghan Air Force, still several years away from being self-
sufficient, will require even more assistance,'' he said. Do 
you share that quote from General Dunford? That view.
    Mr. Allen. Well, again, Senator, I do. I believe from my 
own personal experience, both in Afghanistan and in Iraq, in 
Bosnia, in other places, the accepted, enthusiastic presence of 
foreign forces in the formations of an emerging youthful 
force--it is an essential presence frankly.
    And at the end of the Soviet era, we learned two lessons. 
One was that the Soviets left advisors with a pervasive touch 
across the Afghan forces that had been provided by them. Now, 
you might have problems with the Soviets or have problems with 
the Afghan forces, but in the end, they were a pretty effective 
force. And the Soviet decision was to leave substantial numbers 
of advisors and a substantial resource trail of money to 
support that force.
    When the Soviet Union began to come apart and the advisors 
first were withdrawn and then when the Soviet Union collapsed 
and the money was withdrawn, we saw ultimately the very rapid 
deterioration of the post-Soviet Afghan force. It began to 
collapse, fragment along ethnic and tribal lines, and we saw 
from that the emergence of the civil war and all of the horror 
that Ms. Nazary has talked about.
    Our recommendations were predicated upon having a 
sufficient advisory presence and a long-term funding stream to 
give us the time to prepare the Afghans and to lock in those 
skills so that they on their own, as they ought to on their 
own, will be the authors of the stability of Afghanistan over 
the long term. That is why this campaign has always 
envisioned--it has always envisioned-- 
a residual force that would carry on the work at an advisory 
level that we paid such a high price to pay for in the 
conventional phase.
    So I do agree with General Dunford.
    Senator McCain. And you would think that we might have 
learned a lesson from Iraq, but perhaps not.
    I guess, finally, it is pretty obvious it is going to be 
Ashraf Ghani or Abdullah Abdullah as the next President of 
Afghanistan. You have had a lot of conversations and engagement 
with both of those individuals. Do you have confidence in both 
of them?
    Mr. Allen. I have confidence in both of them, sir. Dr. 
Abdullah Abdullah--and I want to be careful with my public 
comments not to appear to influence the runoff if it comes. I 
will limit my comments that I have known Dr. Abdullah Abdullah 
for some period of time. I think he is a very responsible 
leader with great governmental experience. I worked very 
closely with Dr. Ashraf Ghani because he was the coordinator 
for the process of transition. He also is a former minister and 
has had extensive experience.
    The value of both of those candidates, frankly, is that 
they are extraordinary well educated. They are well connected 
into the Afghan society across tribal and ethnic lines. They 
are well accepted and well known by the international 
community, and I believe, very importantly, they hold very 
similar views on the long-term presence of the West and the 
value of that presence both for civil society, the rights of 
women, and the long-term security stability. I believe they are 
also, very importantly, committed to what I think is the 
existential threat in Afghanistan and that is rooting out 
corruption.
    Senator McCain. I thank you, General Allen. And I know you 
have also been involved in other issues, including the Israeli-
Palestinian issue, and I thank you for your continued service 
to the country.
    Thank you, Mr. Chairman.
    Senator Kaine. Thank you, Senator McCain.
    Ms. Nazary, a question about youth activism. General Allen 
talked about the need to train the military leadership with 
young leadership coming up through the ranks. Talk a little bit 
about the engagement of the Afghan youth in the election 
process that you just observed. With that average age being age 
18, a lot of our hopes about the future of Afghanistan rests 
with the leadership of that generation, those who are 18 to 
your age. And talk about their degree of political 
participation in this recent first round of the Presidential 
elections.
    Ms. Nazary. I think the Afghan population is--about 70 
percent of the population is under the age of 25. So that 
actually gives me great hope for the future of Afghanistan. I 
know of Afghans my generation who have come to study abroad or 
in Afghanistan and have been extremely active. For example, 
Afghanistan 1400. It is the year 1393 in Afghanistan. So 1400 
is looking ahead. And it is a youth coalition built in 
Afghanistan by the youth, and they are very politically active 
and make informed choices of who to vote for. This is something 
that gives me real hope.
    Senator Kaine. Thank you for that.
    General Allen, I want to ask a question about Pakistan. You 
heard the first panel when I asked the question about the 
economic opportunities with Pakistan, and Ms. Sumar offered 
some thoughts about how a number of projects could potentially 
sort of change what has been the complicated dynamic you 
described. Do you have the same hope about those? Do you have 
concerns? What is your current thought about that piece of 
advice that you will give to the next President on the Afghan-
Pakistan economic relationship?
    Mr. Allen. Well, I think that the new President and his 
administration in Kabul really gives us an opportunity to reach 
out to the Sharif administration in Islamabad to create a new 
era of cooperation. That cooperation, as I said in my opening 
statement, can come in many ways, but one of the most important 
opportunities for cooperation is economic cooperation. I think 
we all know from our study of history and our study of 
insurgencies that you fight an insurgency to a certain point in 
a military context, but you lock in the gains of governance and 
economic opportunity by stimulating economic growth, economic 
relationships, and regional trade.
    My sense is that Prime Minister Sharif grasps that. He said 
important things about improving the relationship with India, 
and part of that improvement is not just a political 
relationship but it is an economic relationship as well. So by 
tying in the Central Asian states to the emerging economy of 
Afghanistan--and we do not really know yet what that economy 
looks like. It has been distorted by 30-plus years of crisis 
and conflict. But by tying in the Central Asian states and 
their wealth to the emerging Afghan economy, ultimately to a 
willing and receptive Pakistani system of government which is 
at a policy level willing to have the relationship with 
Afghanistan, and then have that transit across Pakistan to 
India creates an opportunity for economic development in that 
part of the world that we just cannot begin to imagine.
    So my hope is that the new President in Kabul will reach 
out to his counterpart in Islamabad and deal with the issues of 
security and the people-to-people dynamics, but the opportunity 
for economic advantage for both countries, if they can see that 
same common interest, I think is really important.
    Senator Kaine. I want to ask you a question about your last 
piece of advice dealing with what you view as the existential 
threat, corruption. You indicated that the West and the United 
States may have made the problem worse to some degree, and yet 
most of the challenge is a domestic challenge for the President 
and the new leadership team to deal with. Let me ask you about 
the piece that is on the U.S.'s side of the equation. While we 
can and will continue to encourage anticorruption efforts, are 
there lessons learned from the last decade that the United 
States should put into practice as we contemplate the kinds of 
aid whether it is international development or trade or other 
economic assistance that we provide to Afghanistan going 
forward? What improvements should we be looking to make on our 
own side of the equation?
    Mr. Allen. Chairman, this deserves a lot of analysis 
because the knockout blow in insurgency is not delivered by the 
military. The knockout blow is delivered by the development of 
credible governance and economic opportunity. What we have 
discovered in Afghanistan--and I believe other Afghans would 
agree with me--when all of the institutions, recognizable 
institutions, of governance and the rule of law and the 
judiciary were crushed, after year after year either though the 
Communist coup or the Soviet era or the civil war or the 
Taliban period, the one thing that typically was functioning 
was the tribal system. And the patronage networks, which are 
inherent in a tribal system anywhere in the world, ultimately 
took on a far greater role in Afghan life than the systems of 
government and recognizable institutions.
    It is going to be very difficult to root them out of the 
government and root them out of the institutions of government 
that they have sought to continue to influence because in many 
respects the struggle in Afghanistan, beyond the struggle in 
the battlefield against the Taliban--the struggle will be 
building credible governance at the expense of the criminality 
and the criminal patronage networks and the corruption. The 
criminal patronage networks see that a well-functioning 
government, a well-functioning judiciary, one that is based 
truly and credibly on the rule of law is in direct competition. 
So the struggle is not necessarily apparent to those who are 
observing what is happening in Afghanistan.
    This swath of Afghan youth are fed up with corruption. They 
are fed up with having to pay a bribe to have their daughters 
or their spouses seen by physicians. They are fed up with 
having to bribe their way into schools. We have a swath of the 
youth of Afghanistan that is poised and ready ultimately to 
throw off the burden that corruption has placed on that 
society. And unless the administration of the newly elected 
President is willing to comprehensively go after the criminal 
patronage networks and the drug enterprise, often protected as 
we have seen in other insurgencies by the ideological Taliban 
right now, the ideological insurgency, we are going to have a 
problem over the long-term viability of Afghanistan.
    So lessons learned. Ensure that as we dedicate development 
money and expend development money--ensure that the vetting 
process is proper and that the vetting process goes as deeply 
into the Afghan fabric or the host nation's fabric of society 
as we can to ensure that none of that money is siphoned off by 
subcontractors, sub-sub-subcontractors and ultimately find 
their way into the hands of the Taliban.
    If I were to design a campaign like this all over again and 
we had the time to get it right, I would have looked very, very 
hard at the kinds of authorities necessary and the 
organizational approaches that give us the ability to achieve 
synergy between our intelligence organizations, law 
enforcement, and threat finance organizations to create synergy 
that permitted us to get at what is emerging really as an 
unholy alliance in many respects, which is the criminal 
patronage network operating in conjunction with the money-
generating effects of the drug enterprise, supported by, 
protected by the ideological insurgency, the Taliban.
    We have seen this elsewhere and we are going to see it 
again elsewhere. Going into a campaign well organized with the 
right kinds of authorities so that we can conduct law 
enforcement, counternarcotics, counterdrug work as we are doing 
counterinsurgency gives us the ability to tap into the 
strengths of all of those organizations. But in some respects, 
we firewalled those capabilities, and there was no cross-
pollination that could have permitted us to build the synergy 
necessary to take that triangle apart and to attack the 
component legs of that triangle.
    So lesson learned for me if I were ever to advise someone 
again about a long-term counterinsurgency that we might be 
involved in, it would be, first and foremost, recognize that 
the threat will be corruption inherently. It always will be, 
that there will be a drug component most likely, and that the 
two of those legs will be in some form of a symbiotic relation 
with the insurgency itself. Let us go in organized with the 
right kinds of legal authorities for the military, the police, 
the drug enforcement entities, the intelligence, and the threat 
finance. Let us go in with the right kind of organization, 
which I sought to do in my final months there as the commander, 
to let us get at probably the greatest threat to our success in 
that next insurgency, which is the insipient criminality that 
will exist once we have washed away the insurgency itself.
    Senator Kaine. Ms. Nazary, I would like your opinion on the 
very same question. As you travel and interact with Afghan 
women and Afghan society, talk to me about your thoughts about 
this future anticorruption challenge in Afghanistan.
    Ms. Nazary. I think corruption is a challenge, and with the 
candidates, they all have again spoken that they will step up 
their efforts to work against corruption and I hope they will 
succeed in that.
    Senator Kaine. And do you have that same sense that young 
people coming up have come up in a way where they are ready to 
cast off the notion of having to pay a bribe to see a doctor, 
having to pay a bribe to get into school?
    Ms. Nazary. That is very true, getting into school, getting 
jobs and opportunities. There is corruption and we see that, 
and people are fed up by that. Youth are fed up by that. And 
the civilians would very much want that to go away.
    Senator Kaine. There is much that we can do and should do. 
Your testimony about us continuing our focus and engagement is 
very important, but the thing that is ultimately going to be 
the best guardian of success is that demand of the public that 
things be different, the demand of the Afghan public that 
things be different.
    Very, very good testimony. Again, both of your written 
testimony was quite provocative and informative, and your 
personal testimony today was as well. I appreciate all being 
here.
    The record of this hearing will stay open until close of 
business 1 week from today. So if committee members have 
questions that they wish to submit in writing, they will be 
submitted to you, and I hope you will respond promptly if they 
do.
    But again, thank you for appearing on this important topic.
    With that, the hearing is adjourned.
    [Whereupon, at 11:56 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


          Response of Jarrett Blanc to Questions Submitted by 
                        Senator Robert Menendez

    Question. Section 602(b) of the Afghan Allies Protection Act of 
2009 authorized the issuance of Special Immigrant Visas (SIVs) to 
Afghan nationals who were employed by or on behalf of the U.S. 
Government in Afghanistan and who meet certain requirements. What 
percentage of SIV recipients are translators or security personnel? 
What percentage of SIV recipients are locally employed political 
officers or program support staff?

    Answer. Since the start of FY 2014, the Department of State has 
issued over 1,900 Special Immigrant Visas (SIVs) to Afghan principal 
applicants, for a total of over 4,000 issued SIVs this year including 
eligible family members. This is more than all the previous years 
combined and more than double the total number of Afghan principal 
applicants issued visas in FY 2013. Of those total numbers, Afghans 
employed on behalf of the U.S. military, including translators and 
security personnel, continue to comprise the majority of SIV 
applicants. According to National Visa Center data on occupations as 
reported by SIV applicants, over 6,500 of those who have applied for 
the SIV program and received Chief of Mission (COM) approval to date 
reportedly worked as translators and another 200 as security personnel. 
Locally employed (LE) staff employed by the Department of State in 
Afghanistan have received 196 SIVs since 2012, with the vast majority 
(172) issued since October 2013. To date, 714 LE staff have submitted 
SIV application letters. These applications represent all aspects of 
the work done by LE staff, both those assisting with political issues 
and those in more traditional support staff roles.
                                 ______
                                 

                Responses of Fatema Sumar to Questions 
                  Submitted by Senator Robert Menendez

    Question. How does the New Silk Road initiative work to develop the 
capacity of civil society watchdog organizations in Central Asia as 
countries in the region are encouraged to deepen economic ties across 
borders?

    Answer. USAID's Development through Regional Cooperation (DRC) 
program supports the New Silk Road initiative's work with civil 
society. The DRC is a regional initiative covering all five Central 
Asia countries, with expanding participation of Afghanistan and 
Pakistan civil society organizations (CSO). The program is 
strengthening their watchdog and advocacy capacity in key thematic 
areas such as environmental issues, women entrepreneurship and 
children's rights. The program seeks to identify, network, and 
strengthen these CSOs from across the region in order to generate 
grassroots domestic constituencies for reform and while linking them to 
advance integration between Central Asian countries, as well as between 
Central and South Asia.

    Question. How has the NSR sought to develop links among women 
business leaders in Afghanistan with their counterparts in South and 
Central Asia?

    Answer. To increase women's economic participation, the U.S. 
Department of State and USAID support a number of programs which link 
women business leaders with each other to expand market opportunities 
and exchange business best practices.
    For instance, the Department of State supports two regional 
initiatives: the Central Asia and Afghanistan Women's Economic 
Symposium (WES) and the South Asia Women's Entrepreneurship Symposium 
(SAWES). Now in its third year, the WES initiative has trained 
thousands of women and helped hundreds to obtain new or larger loans, 
establish or expand businesses, and gain employment in Central Asia. As 
part of the WES initiative, we are expanding women's markets and 
strengthening local production capacity through international textile 
trade hubs in Kazakhstan and the Fergana Valley situated across 
Uzbekistan, Kyrgyzstan, and Tajikistan. The initiative also helped 
launch the Central Asia Afghanistan Business Women's Network, which is 
the first regional women's business association to promote business, 
border, and trade reforms helpful for businesswomen across Central Asia 
and Afghanistan and has been operating for over 2 years.
    The SAWES initiative is continuing efforts to empower women 
entrepreneurs through regional cooperation in South Asia and beyond. As 
a direct result of knowledge gained at the 2012 Symposium, the Afghan 
delegation established an advocacy group called ``Leading Lady 
Entrepreneurs of Afghanistan for Development'' (LEAD) in July 2013 to 
ensure businesswomen's voices are heard by policymakers. Through a 
series of cross-border training, advocacy, and networking activities, 
the initiative is helping to increase access to finance, markets, and 
business capacity for Afghan women entrepreneurs and develop 
connections with businesswomen across the region. For example, in April 
2014, Afghan businesswomen, including LEAD members, participated in a 
regional study tour to Bangladesh where they gained experience in 
leadership skills, sustainable business models, advocacy tools, and 
access to financial support.
    With U.S. support, Afghan women participate with Central Asians in 
business training at the Aga Khan Central Asia University and are able 
to attend the American University of Central Asia in Bishkek. Since 
2010, USAID's Central Asian Trade Forums have brought together business 
and government representatives from the CAR countries and their 
counterparts from Afghanistan and Pakistan, including women 
entrepreneurs and organizations such as the Women's Development Agency 
in Tajikistan. In February 2014, the Afghan-Kazakh-Uzbek business-to-
business conference in Mazar-e-Sharif attracted businesswomen and 
businesswomen's associations and led to commercial agreements in 
cosmetics and textiles. Moreover, since 2012 USAID's Women's Leadership 
in Small and Medium Enterprises (WLSME) program in Kyrgyzstan has 
worked with nearly 600 women entrepreneurs to build better linkages 
with suppliers, buyers and regional markets. In July 2013, USAID 
announced the Promoting Gender Equity in National Priority Programs 
(Promote), a 5-year program (2014-2019) to enable Afghan women to 
increase their participation in the formal economy by securing higher 
education opportunities and employment with advancement potential as 
well as establishing and expanding viable small- to medium- to large-
sized women-owned businesses. Planned activities will coordinate 
closely with other USAID and donor projects, such as the regional 
economic growth project Afghanistan Trade and Revenue Project (ATAR), 
designed to address Afghan women's economic empowerment in-country and 
regionally.

    Question. How much assistance funding has the State Department and 
USAID dedicated toward the goals of the New Silk Road Initiative since 
its announcement?

    Answer. We are thankful for Congress' support for regional 
programming between Afghanistan and its neighbors in South and Central 
Asia. This type of programming, which we call the ``New Silk Road 
Initiative,'' is critical to supporting the development of a prosperous 
and stable Afghanistan embedded in a prosperous and peaceful region. 
Since 2011, the New Silk Road initiative has coordinated and 
intensified efforts by the United States, donors and regional 
stakeholders to advance regional economic connectivity. For the past 3 
years, we have aggressively employed diplomatic and development means 
to facilitate Afghanistan's economic transition through regional 
connectivity between South and Central Asia and the broader region.
    The State Department and USAID have committed more than $24.3 
million in regional Central Asian Economic Support Funds (ESF) to 
support targeted interventions with funds from fiscal year 2012 through 
fiscal year 2014. These funds have been and will be used to increase 
trade and investment; improve transit; advance cooperation on energy 
trade; promote effective management of natural resources across the 
region; and develop sustainable people-to-people constituencies for 
regional engagement on private sector and trade development.
    In addition to these regional resources, bilateral resources from 
Afghanistan, Pakistan and the Central Asian Republics have supported 
regional connectivity priorities. For instance, in the area of trade, 
USAID has leveraged resources from the Regional Economic Cooperation 
(REC) project in Central Asia, the Afghanistan Trade and Revenue (ATAR) 
project and the Pakistan Trade Project (PTP) to work toward the common 
goal of facilitating trade across a traditionally unconnected region. 
ATAR alone has committed nearly $8 million toward cross-border 
programming between Afghanistan and Central Asia.
    Infrastructure projects funded with ESF resources in Pakistan have 
built multiple roads linking Afghanistan to Pakistan and the broader 
region, including all four major trade and transit routes including 
Peshawar-Torkham, Quetta-Chaman, Bannu-Gulam-Khan, and Angoor Adda. The 
Pakistan TRADE project has also worked to boost regional trade and has 
reduced the time in Karachi port for Afghan goods in half, from 43 to 
23 days.
    Recognizing the importance of cross-border trade and transit 
between Afghanistan and Central Asia, we have undertaken a 
comprehensive effort to ensure that regional and related bilateral 
activities are properly coordinated and function to promote regional 
trade and investment and security. We have made investments in core 
infrastructural assets such as roads, aviation and telecom, laying the 
foundations to help promote interconnectivity with the people, 
businesses and countries of Central Asia. Substantial investments have 
also been made in power generation and distribution that will further 
enable economic development as well as promote domestic, regional and 
foreign investment and enhance regional stability.
    Notably, we have also successfully leveraged other resources in 
support of the New Silk Road initiative; between fiscal years 2010 and 
2014, estimated investments by other donors, total more than $2 
billion, including the Asia Development Bank and the World Bank, in 
support of energy transmission lines, hydropower plants, and energy-
sector reforms. Specifically, with Central Asia regional funds, USAID's 
Regional Energy Security Efficiency and Trade Project has spent over $4 
million to fund the CASA-1000 Inter-Governmental Council Secretariat 
which coordinates planning on a $1 billion, 1,300 megawatt electricity 
transmission line which will connect Central Asian countries with 
Afghanistan and Pakistan.

    Question. Does the Department of Defense have a role in the New 
Silk Road initiative? If so, how has the State Department worked with 
DOD to support the goals of the initiative?

    Answer. The New Silk Road initiative relies on interagency 
cooperation to realize the shared objective of a stable, secure, and 
prosperous Afghanistan as part of a stable, secure, and prosperous 
South and Central Asia. The Department of Defense is one of many 
interagency partners that have aided the New Silk Road's focus on 
regional economic cooperation. Support has included extensive programs 
building the border capacity between Afghanistan and Pakistan and 
Central Asia as well as assistance on energy and trade facilitation. 
Their support includes both infrastructure, such as installation of 
rail scanners on the Uzbek-Afghan border at Termez, as well as 
technical assistance to facilitate secure, regional trade flows.
    Looking beyond the economic and security development work, our 
Department of Defense colleagues have an instrumental role in 
developing and maintaining the Northern Distribution Network (NDN) and 
its supply chains throughout Central Asia that supported operations in 
Afghanistan. These endeavors leverage mentoring and other assistance 
USAID, the European Bank for Reconstruction and Development (EBRD) and 
other partners provided to businesses. The relationships and expertise 
gained through Department of Defense efforts in Central Asia are 
critical aspects of continued New Silk Road engagement in the region. 
We continue to work with our Department of Defense partners on 
identifying ways to incorporate NDN lessons learned within New Silk 
Road efforts. In late April, State and Defense personnel met at the 
Defense Logistics Agency in Ft. Belvoir to review further ways to 
transition NDN for commercial use throughout the region. The New Silk 
Road will remain a platform for the Department of Defense and other 
interagency partners to pursue our shared objectives regarding 
Afghanistan's future in the South and Central Asia region.
                                 ______
                                 

              Responses of Kathleen Campbell to Questions 
                  Submitted by Senator Robert Menendez

    Question. Does USAID provide support to Afghan civil society 
organizations that conduct oversight on Afghan Government ministries 
which also receive U.S. support? If so, how many organizations receive 
funding and at what levels? Please describe the programming conducted 
by these organizations.

    Answer. USAID funds activities by a wide range of Afghan civil 
society organizations whose work relates to overseeing Afghan 
Government performance. These activities are generally organized around 
types of services or issues that often are the responsibility of more 
than one Afghan ministry, such as monitoring provincial level 
corruption and promoting women's rights.
    USAID funding for civil society-specific programming in FY13 was 
$60.2 million, including $14.4 million in women's-specific programming. 
The Agency's principal civil society support program has facilitated 
capacity building for 374 Afghan NGOs across the country as part of a 
civil society support network. Other programs regularly involve 
engagement and capacity building with civil society groups, including 
USAID's parliamentary support program, media program, rule of law 
program, and work on stabilization and democracy.
    There are some cases where funding civil society organizations is 
designed to increase the accountability and effectiveness of government 
programs that also receive USAID funding. For example:

  <bullet> Elections: USAID has invested $25 million during this 
        election cycle on programs to support civil society capacity-
        building around advocacy for electoral reform. Through these 
        efforts, civil society organizations (CSOs) are helping to hold 
        the Independent Election Commission (IEC) and the Independent 
        Electoral Complaints Commission (IECC) accountable for 
        decisions relating to election planning, security, and 
        complaints. The United States also supports the IEC and ECC 
        with a $55 million contribution to the $129 million UNDP-
        administered ELECT program that pools funding from multiple 
        donors.
  <bullet> Rule of Law: USAID has supported the Afghanistan Independent 
        Bar Association (AIBA) through a multiyear, $1.2 million grant, 
        which provides legal aid and legal awareness services to 
        indigent Afghans who need representation in court. At the same 
        time, a component of USAID's Formal Justice Rule of Law program 
        provides support to the Supreme Court to train judges and 
        improve court administration so that access to justice can be 
        improved.

    More generally, USAID's two largest and most comprehensive civil 
society programs are the Initiative to Support Afghan Civil Society 
(IPACS II), which concluded at the end of 2013, and the follow-on 
Afghan Civic Engagement Program (ACEP), which started in 2013 and runs 
through 2018. IPACS II strengthened a national Afghan civil society 
network of 374 local NGOs, many of them women-led or women-focused 
CSOs, to improve their capacity in areas such as leadership, 
governance, strategic planning, gender awareness and mainstreaming, 
sustainability, and monitoring and evaluation. Through these civil 
society strengthening efforts, CSOs were able to, for example:

  <bullet> Engage in advocacy and monitoring of the Afghan national 
        budget process and launch an annual national policy reform 
        conference;
  <bullet> Advocate with Members of Parliament for the adoption of 29 
        of 33 amendments to the Social Organization Law, amendments 
        that President Karzai signed into law in September 2013;
  <bullet> Advocate for changes to nine articles of the government's 
        proposed law on Non-Governmental Organizations, which are being 
        considered by Afghanistan's Ministry of Justice;
  <bullet> Advocate for and become signatories to a Memorandum of 
        Understanding between Parliament and civil society 
        organizations; and
  <bullet> Bring together civil society organizations, local government 
        authorities and individual citizens to identify local 
        challenges and develop local solutions through 1,286 Community 
        Dialogue Sessions in 30 provinces, involving more than 25,738 
        people. These dialogues feed into a national level effort to 
        prioritize civil society's policy reform efforts and advocate 
        these priorities to the Afghan Government.

    ACEP, USAID's follow-on civil society and media program, will 
continue this important support to anticorruption and government 
oversight activities that utilize civil society organizations, the 
traditional media and social media to educate citizens against 
corruption. ACEP will promote greater CSO engagement with government 
and policymakers, as well as oversight, through trainings in 
legislative processes, policy research, constituency-building, 
networking, transparency/anticorruption, lobbying and monitoring of 
service-delivery, to its 14 key partner organizations and their 140 CSO 
partners in the provinces.
    In the first year of the program, ACEP plans to award four 
Government Monitoring and Policy Advocacy Campaign Grants with 
estimated grant ceiling of $43,000-$45,000 per grant, to the following 
organizations:

  <bullet> Afghanistan Development and Welfare Services Organization: 
        The Build Demand for Accountability project will work with 
        selected government institutions to develop a business process 
        map (charter) for their administrative services used by 
        citizens. The project is designed to address the lack of 
        awareness amongst citizens on the established timeframes for 
        government services as well as the document flow process and 
        the roles of various government offices.
  <bullet> Afghan Coordination Against Corruption: AFCAC proposes to 
        work with the Ministry of Education (MoE) on this project that 
        is designed to stimulate the creation of an anticorruption 
        culture at the ministry level. The project will advocate for 
        the implementation of an anticorruption action plan.
  <bullet> Integrity Watch Afghanistan: The project will carry out 
        qualitative research in four provinces (Kabul, Nangarhar, 
        Balkh, and Herat) on the intended and potential role of CSOs in 
        the provincial budgeting process. It will raise CSOs' awareness 
        on budget issues through technical trainings and will build 
        networks of CSOs at the subnational and national levels to work 
        on provincial budgeting issues.
  <bullet> Initiatives for Development (IDO): IDO proposes to implement 
        the project in collaboration with Empowerment Center for Women 
        (ECW) with the goal of launching a civil society advocacy 
        initiative aimed at improving Government service delivery and 
        promoting accountability through monitoring National Budget 
        spending and the performance of the five line ministries.

    Question. On May 5 the Washington Post published a story which 
described a lack of USAID oversight on a major grantee, International 
Relief and Development (IRD). Please provide information about IRD's 
hiring and executive compensation practices and its use of 
nondisclosure agreements for USAID funded programs in Afghanistan.

    Answer. USAID conducts annual ethics training for all of its 
employees on post-government employment rules and requirements, with a 
particular focus on new employees and those planning to leave Federal 
Government employment. Post-government employment rules generally do 
not prohibit former employees from working for any particular company. 
However, officials who leave the Agency are prohibited from 
representing a new employer back to the Federal Government on 
particular matters, for example on a contract on which the former 
employee worked.
    As a nonprofit entity, International Relief and Development (IRD) 
primarily receives grants and cooperative agreements as opposed to 
contracts. Compensation costs, such as executive compensation, are 
generally reimbursable under United States Government (USG) awards if 
they are reasonable, allowable, and allocable per governing 
regulations. For nonprofit entities such as IRD, annual A-133 audits 
are required in accordance with the Office of Management and Budget 
requirements. The A-133 independent auditors are responsible for 
determining the propriety of costs claimed under USG awards, including 
executive compensation and bonuses. IRD's rate calculation and 
supporting data included in the A-133 audit do itemize certain costs, 
but do not delineate executive compensation separately from other labor 
costs. Aggregate bonus costs are broken out as a line item, and are not 
delineated by employee. A-133 audit results are shared for review with 
USAID, including the Office of Inspector General. Recent A-133 audits 
of IRD did not question executive compensation or bonus costs or 
identify any other items of questioned costs.
    With regard to USAID's grants and cooperative agreements, separate 
efforts have been undertaken to reiterate the whistleblower protections 
provided to employees of assistance recipients and subrecipients. On 
May 9, 2014, USAID sent letters to all assistance recipients regarding 
their statutory obligations to notify and observe the legal protections 
afforded their employees. Concurrently, a Procurement Executive 
Bulletin was issued to all USAID Contracting and Agreement Officers to 
ensure that the applicable provisions related to whistleblower 
protections were included in all new and existing awards. USAID 
contractors and implementing partners have an obligation to report 
allegations of waste, fraud, or abuse related to USAID projects. No 
contractor or partner should use nondisclosure agreements to limit the 
federally protected rights of its employees to report waste, fraud or 
abuse.

    Question. All of these factors inhibit transparency of U.S. foreign 
assistance and make the external coordination of aid dollars even more 
difficult.
    USAID's Foreign Assistance Dashboard features transaction-level 
data for Afghanistan, but does not include performance data.

  <diamond> Why isn't data published on the Dashboard linked to 
        performance data?

    The State Department does not publish its foreign assistance data 
on the Dashboard, creating an incomplete picture of U.S. assistance 
efforts in Afghanistan.

  <diamond> Why doesn't the State Department publish its foreign 
        assistance data on the Dashboard?

    U.S. agencies involved in foreign assistance do not use the 
International Aid Transparency Initiative (IATI) XML format to publish 
their data; instead their data is ``crosswalked'' from the Dashboard 
into the IATI standard, often compromising the integrity of the data.

  <diamond> Why don't USAID and the State Department use the IATI XML 
        format at the outset to publish their data?

    Answer. The Foreign Assistance Dashboard (FAD) is a Department of 
State-managed Web site that presents budget, obligation, and 
disbursement data for all U.S. Government agencies that have foreign 
assistance funding. The purpose of the FAD is to make U.S. Government 
foreign assistance data available to the public in open, machine 
readable formats and to enable anyone to track foreign assistance 
investments in a standard and easy-to-understand visual format. USAID 
submits data to the FAD in accordance with the mandates in OMB Bulletin 
12-01, which provides guidance on the regular submission of timely, 
detailed, high-quality comparable data on foreign assistance 
disbursements. The FAD is not a performance Web site, and OMB Bulletin 
12-01 does not require agencies to publish performance data on the FAD. 
USAID, however, does publish performance information in several other 
places, and links disbursement data from the FAD and Afghanistan's 
annual performance data on its Dollars to Results (http://
results.usaid.gov/) Web site. USAID will incorporate FY 2013 data on 
the Dollars to Results Web site before the end of the third quarter. 
Other publication of performance data include our Annual Performance 
Plan and Report as part of the Congressional Budget Justification, on 
Performance.gov, on USAID's Open Data Listing (http://www.usaid.gov/
data), and in evaluations which are available online through the 
Development Experience Clearinghouse (http://dec.usaid.gov).
    In the U.S. IATI Implementation Plan, the administration publically 
committed to have all U.S. Government foreign assistance data reported 
on the FAD by the end of 2015. USAID has provided the FAD with budget 
data since December 2010. In 2012, USAID began providing aggregate 
obligation and disbursement data, and in July 2013, USAID became the 
first U.S. Government agency to fully comply with OMB Bulletin 12-01 
and release detailed transaction-level data to the FAD. Our Department 
of State colleagues can provide details on their schedule for providing 
the Department's information as well as the status of other agencies 
reporting to the Dashboard. OMB Bulletin 12-01 does not require 
agencies to report data in the XML format directly to the FAD at this 
time. USAID data are submitted to the Department of State in an Excel 
file, which is then converted to XML using crosswalk mapping that USAID 
developed, cleared, and believes in no way compromises the integrity of 
the data. The Department of State then registers the data with IATI, 
allowing USAID's transaction-level information to be available in XML 
on the FAD ``Data'' page.

    Question. Family Planning.--Globally, we are seeing a skyrocketing 
demand for family planning services. In the most vulnerable 
populations, we see both a high birth rate due to cultural influences, 
and a high number of maternal deaths linked to backroom abortions.

  <diamond> What is USAID doing to promote family planning services in 
        the most vulnerable populations and how do you plan to address 
        the social and religious barriers?

    Answer. USAID's family planning and reproductive health program 
contributes to lower maternal and child mortality by enabling women to 
choose the number, timing, and spacing of their children and by 
reducing unintended pregnancy, thereby reducing abortion. We utilize 
mobile outreach and frontline community health workers to provide 
voluntary family planning information, services and referrals to women 
and men in hard-to-reach and rural areas. We ensure that HIV-positive 
women and men have access to quality counseling and family planning 
services through the integration of voluntary family planning and HIV 
services. In addition, our partnership with other donors has allowed us 
to negotiate lower unit prices for the most in-demand contraceptives, 
reducing financial barriers and increasing access to a wide range of 
contraceptives for women with an unmet need for family planning. We 
support the provision of a wide variety of family planning methods, 
including nonhormonal methods, in all USAID-assisted countries.
    USAID supports innovative interventions to help individuals and 
communities address social and religious barriers, which hinder access 
to family planning, including harmful gender norms. USAID's programs 
work with local support systems, health providers, and traditional 
leaders to educate families and communities about the critical 
importance of family planning for the health of both the mother and the 
child. In Afghanistan, USAID trains and empowers community and 
religious leaders and local organizations to deliver health messages 
and build community awareness about the need for women, and 
particularly young women, to have access to family planning services. 
In Yemen, USAID collaborated with local religious leaders and the 
Yemeni Ministry of Public Health and Population to conduct a ``Safe Age 
at Marriage'' program, and provided integrated family planning and 
maternal and child health services to almost 300,000 clients.
    USAID recognizes that youth must be reached to transform harmful 
gender norms, and that youth themselves have a particular unmet need 
for family planning information and services. All USAID-supported 
family planning and reproductive health programs address youth health 
in some capacity. In Afghanistan, USAID's work strengthens the ability 
of family planning service providers to tailor services to vulnerable 
populations, including young couples, and increases the availability of 
youth-friendly family planning services. In Nepal, USAID supports a 
national campaign that targets hard-to-reach key audience--including 
youth, young couples, migrants, and the socially excluded--with 
messages to promote informed choice and improve method and service use 
among clients. The campaign also includes a range of activities 
promoting the acceptance of family planning among community and 
religious leaders.
                                 ______
                                 

                Responses of Fatema Sumar to Questions 
                     Submitted by Senator Tom Udall

    Question. The New Silk Road initiative has undergone an important 
transformation from a vision to an action plan economically linking the 
countries of South and Central Asia. While the primary focus area, 
energy, does have the ability to accelerate development in the region, 
it will be difficult to fully take advantage of Central Asia's 
hydropower potential and build new capacity without addressing the 
tensions around water-sharing that have existed for decades. The U.S.-
Mexico International Boundary Water Commission has been essential in 
resolving issues around boundary demarcation, national ownership of 
waters, water quality, and flood control in the border region.

  <diamond> What is the scope for similar institutions in the region 
        and how is the Department supporting them?
  <diamond> How is transboundary water management integrated into the 
        energy planning pillar of the New Silk Road?

    Answer. Although water is essential to Central Asia's economic 
growth, regional management of transboundary water resources is weak 
and a source of political tension. Improved management could diffuse 
tensions over regional water resources and unlock cooperation on energy 
issues. With our international partners, we are building capacity to 
manage transboundary water issues broadly throughout the region with 
technical training, diplomatic engagement, and institutional support. 
This includes providing funding to the U.N. Regional Centre for 
Preventive Diplomacy in Central Asia (UNRCCA), which has shown modest 
progress on developing a negotiated legal framework for managing 
transboundary water. We hope to contribute to the Central Asia Energy-
Water Development program, a World Bank multidonor trust fund that is 
improving the regional capacity for managing water. Our efforts 
complement the efforts of the International Fund for Saving the Aral 
Sea (IFAS), the regional organization tasked with managing 
transboundary water issues. However, IFAS' nebulous organizational 
structure has impacted its efficacy, as have regional political 
rivalries that are often unrelated to water and energy. The increasing 
engagement of all five Central Asian nations and Afghanistan in these 
programs indicates we are incrementally improving cooperation on 
transboundary water management, and moving closer to the sustainable 
management of existing surpluses of summer hydropower to be exported 
over the Central Asia-South Asia (CASA-1000) power transmission 
project--a signature project of the New Silk Road. Our continued 
support of these programs will be the key to success.

    Question. As the region and donors embrace economic cooperation as 
a necessity, and the Department continues to identify specific 
activities to advance the New Silk Road, the efficient use and 
decisionmaking around foreign assistance allocated to the region is 
more important than ever. This brings the Department's complex foreign 
assistance architecture into question. As it currently stands how are 
the separate SRAP, ACE, SCA and USAID foreign assistance units 
coordinating project-level decisions when each have separate funding 
streams with subregional or single country mandates?

  <diamond> a. Are there efforts to streamline these functions to 
        better support the New Silk Road initiative and the region as a 
        whole?
  <diamond> b. How would you recommend that the Department work to 
        better focus planning and expenditures for programs supporting 
        the initiative as a whole?
  <diamond> c. How are DOD-funded activities incorporated into your 
        planning?

    Answer. The Department of State, the U.S. Agency for International 
Development, the Department of Defense, and other interagency partners 
coordinate to pursue a shared objective: a stable, secure, and 
prosperous Afghanistan economically integrated with its South and 
Central Asian neighbors. The New Silk Road (NSR) initiative is the 
policy and operational framework for interagency cooperation to achieve 
the strategic objective of regional connectivity. NSR diplomatic and 
programmatic assistance activities focus on four core pillars: trade, 
energy, customs/borders, and people-to-people connectivity. Funding 
requests and programming are designed in the context of broader U.S. 
foreign policy interests, and aligned through bilateral and regional 
assistance strategies.
    Given the cultural, political, and strategic complexity of the 
South & Central Asia region, the discrete competencies and mandates of 
a variety of agencies and bureaus are required to advance U.S. national 
security and economic interests. We have ensured that these activities 
are well coordinated and aligned through a variety of mechanisms, such 
as biweekly interagency working group meetings with Washington and 
field participants, regular phone calls to missions and communications 
with designated points of contact, including the Department of State, 
USAID's Asia Bureau and OAPA and DoD/CENTCOM, as well as monitoring 
activities of other donors and working with international financial 
institutions to allow us to track funding streams, report progress, 
share information, and avoid duplication of effort.
    The Special Representative for Afghanistan and Pakistan (SRAP) 
coordinates U.S. Government-wide policy for national security, 
diplomacy, and assistance for those two countries in close cooperation 
with USAID's Office of Afghanistan & Pakistan Affairs (USAID/OAPA). The 
Department's Bureau of South and Central Asia Affairs works in close 
partnership with SRAP and the Asia Bureau in USAID to coordinate 
diplomatic and development work for South Asia and Central Asia. The 
Office of the Coordinator of Assistance to Europe, Eurasia, and Central 
Asia (EUR/ACE) and its Central Asia assistance mandate is integral to 
coordinating NSR-related regional and bilateral assistance activities 
linking Central Asia, Afghanistan and its neighbors. Within USAID, a 
formal intra-agency framework known as the ``Almaty Consensus'' guides 
the design and implementation of development programs in regional 
trade, energy and commerce which dovetail with the NSR initiative's 
four priority pillars.
    The diplomatic and development vectors of the NSR initiative are 
augmented by close cooperation with the Department of Defense, which 
supports training and programs that improve border capacity and 
security between Afghanistan, Pakistan, and Central Asia. DOD is also 
instrumental in working to assist local businesses that formed the 
supply chains throughout Central Asia critical to logistical operations 
in Afghanistan through the Northern Distribution Network (NDN) to make 
the transition to compete in a nonmilitary, post-2014 marketplace.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
